<html>
<title> - THIS IS NOT A DRILL: AN EXAMINATION OF EMERGENCY ALERT SYSTEMS</title>
<body><pre>[Senate Hearing 115-653]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-653

     THIS IS NOT A DRILL: AN EXAMINATION OF EMERGENCY ALERT SYSTEMS

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 25, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-299 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>              
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 25, 2018.................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Schatz......................................     3
Statement of Senator Nelson......................................     4
Statement of Senator Klobuchar...................................    31
Statement of Senator Sullivan....................................    33
Statement of Senator Udall.......................................    34
Statement of Senator Capito......................................    36
Statement of Senator Markey......................................    38
Statement of Senator Cantwell....................................    40
Statement of Senator Cortez Masto................................    42
Statement of Senator Duckworth...................................    43
Statement of Senator Wicker......................................    45

                               Witnesses

Lisa M. Fowlkes, Chief, Public Safety and Homeland Security 
  Bureau, Federal Communications Commission......................     5
    Prepared statement...........................................     6
Scott Bergmann, Senior Vice President, Regulatory Affairs, CTIA..     8
    Prepared statement...........................................    10
Michael Lisenco, The National Association for Amateur Radio......    13
    Prepared statement...........................................    15
Sam Matheny, Chief Technology Officer, National Association of 
  Broadcasters...................................................    23
    Prepared statement...........................................    24

                                Appendix

Letter dated January 23, 2018 to Chairman Ajit Pai, Commissioner 
  Mignon Clyburn, Commissioner Michael O'Reilly, Commissioner 
  Brendan Carr and Commissioner Jessica Rosenworcel from Barb 
  Graff, Chair, Big City Emergency Managers; and Director, City 
  of Seattle Office of Emergency Managers........................    49
Letter dated January 25, 2018 to Hon. John Thune and Hon. Bill 
  Nelson from Steven K. Berry, President and CEO, Competitive 
  Carriers Association...........................................    51
Response to written questions submitted to Lisa M. Fowlkes by:
    Hon. John Thune..............................................    52
    Hon. Brian Schatz............................................    52
    Hon. Gary Peters.............................................    53
Response to written questions submitted to Scott Bergmann by:
    Hon. Brian Schatz............................................    54
    Hon. Tom Udall...............................................    54
    Hon. Gary Peters.............................................    56
Response to written questions submitted to Sam Matheny by:
    Hon. Gary Peters.............................................    58

 
     THIS IS NOT A DRILL: AN EXAMINATION OF EMERGENCY ALERT SYSTEMS

                              ----------                              


                       THURSDAY, JANUARY 25, 2018

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Blunt, 
Fischer, Sullivan, Heller, Capito, Gardner, Nelson, Cantwell, 
Klobuchar, Schatz, Markey, Udall, Peters, Duckworth, Hassan, 
and Cortez Masto.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good morning, and welcome to today's hearing 
on our country's Emergency Alert Systems. I hope to hear from 
our panel this morning about what's working, what's not, and 
what we can do better to prevent false alerts like we saw with 
the Hawaii ballistic missile warning earlier this month.
    Ensuring state and local governments have the proper tools 
and safeguards to properly alert the public of an impending 
emergency is absolutely critical. False alerts not only create 
unnecessary panic, but they undermine the integrity of the 
Emergency Alert System, leading to public distrust and 
confusion. What happened in Hawaii is inexcusable and must be 
addressed to ensure an incident like that never happens again.
    It is essential that Americans have an Emergency Alert 
System that they can trust, and, overwhelmingly, by and large, 
I believe they do. There is much that is working well with the 
Emergency Alert System. In fact, it's arguably a model public-
private program, operating as envisioned by this committee 
through the WARN Act.
    Industry partners, including those represented here today, 
have been investing to improve the system and are working 
collaboratively with government and public safety officials to 
carry out the mission. We certainly do not want to overlook 
these successes, but as recent events have shown, there are 
problems that must be addressed.
    Today's hearing will be the first of two hearings on 
Emergency Alert Systems. In the near future, we will hold a 
field hearing in Hawaii to further address the January 13 
ballistic missile false alarm and to follow up on the issues 
that are discussed today.
    Since the early days of the cold war, the United States has 
been building and improving an Emergency Alert System to warn 
our citizens, first from the risks of a Soviet attack and later 
expanded to include natural disasters like fires, floods, 
tornados, and tsunamis. We have continued to build on this 
lifesaving system to include AMBER Alerts, which seek the 
public's assistance when a child is in danger. Soon, we will 
also have Blue Alerts, which can be issued when there is an 
imminent and credible threat to a law enforcement officer.
    From the beginning, our Emergency Alert Systems have 
harnessed the immense resources of commercial communications 
systems--broadcast television and radio in the beginning, and 
eventually cable and satellite TV and mobile phone networks--to 
reach the American public as quickly and effectively as 
possible.
    Here is how the system works, or should work. Our alert 
system relies on Federal, state, and local officials authorized 
by the Federal Emergency Management Agency, or FEMA, to decide 
when an alert is appropriate and what it should communicate. 
These alerts are then sent to FEMA. When FEMA receives an 
alert, it validates that it is from an authorized entity before 
forwarding it to the broadcasters, mobile phone service 
providers, and others, who, in turn, send the alert out on 
televisions, radios, and mobile phones in the affected areas.
    The Federal Communications Commission regulates the 
interface between those sending the messages and the 
communications companies that deliver the messages to us. 
Ensuring that people get the information they need and that 
alerts are credible and make sense to the recipients is an 
ongoing process, but it is fundamental that messages must be 
credible.
    Messages sent in error like the Hawaii ballistic missile 
alert run the risk of undermining the entire alert system by 
reducing people's confidence in alerts. While we do not want to 
prevent authorized officials from communicating alerts to the 
public when they see fit, we must ensure that such officials 
are better trained. There are additional improvements we can 
undertake as well.
    For example, there is no question that the National Weather 
Service's watch and warning system saves lives, but it can also 
be enhanced. That is why I included provisions in the Weather 
Research and Forecasting Innovation Act of 2017, which became 
law last spring, that require the National Weather Service to 
use the latest behavioral science and stakeholder feedback to 
improve its watch and warning system. We should make sure that 
lessons learned from one incident inform and improve future 
alerts.
    The FCC is also taking steps to make improvements to the 
alert system through the use of better geo-targeting of 
messages, which is being considered at its current proceeding, 
that is, targeting messages to those who need to receive them 
and not sending them to those who don't. This helps avoid alert 
fatigue and also addresses the concerns expressed by some local 
officials during the California wild fires last year that an 
overly broad alert could result in traffic jams with those 
unnecessarily leaving their homes and hindering the evacuation 
of those who truly do need to leave.
    As we'll hear today, the goal of providing timely emergency 
information to our communities is also advanced by private 
citizens, like those amateur or ``Ham'' radio operators who 
have helped keep people connected after tragedies like 
Hurricanes Harvey, Irma, and Maria.
    Today, I am pleased to welcome Ms. Lisa Fowlkes, Chief of 
the FCC's Public Safety and Homeland Security Bureau; Mr. Scott 
Bergmann, Senior Vice President of Regulatory Affairs at CTIA--
The Wireless Association; Mr. Sam Matheny, Executive Vice 
President and Chief Technology Officer of the National 
Association of Broadcasters; and Mike Lisenco, a representative 
of the Amateur Radio Relay League.
    Thank you all for being here. I look forward to today's 
discussion.
    I will now recognize the Ranking Member, Senator Schatz, 
for any opening remarks that he may have, and I think he can 
speak personally to the impact of this issue.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    For many people in Hawaii, one of the most harrowing hours 
of their lives started just a few minutes after 8 a.m. on 
January 13, 2018. Cell phones across the state lit up with a 
warning that a ballistic missile attack was imminent. For the 
next 38 minutes, both residents and visitors panicked. People 
were terrified as they scrambled to get in touch with loved 
ones. I know, because I was home in Honolulu that morning, and 
I started to get dozens of texts with screenshots of the push 
alert asking me what was happening.
    Meanwhile, within a minute or two, officials at the Hawaii 
Emergency Management Agency had spoken to the Pacific Command 
and confirmed that there was no missile attack--only nobody 
told the rest of us. The people of Hawaii may be relieved about 
the false alarm, but they are also angry. All of this was 
avoidable, from the false alarm itself to the series of 
mistakes at multiple junctures surrounding the incident. Human 
and bureaucratic errors made the crisis worse, but there are 
also inherent flaws in the system itself.
    We are here today because of problems in our Emergency 
Alert Systems, from Hawaii's false alarm to issues in 
communications related to the recent California wildfires. So I 
want to thank Chairman Thune and Ranking Member Nelson for 
holding this hearing and for agreeing to hold a field hearing 
in Hawaii in the near future, and I want to thank the FCC, 
including Ms. Fowlkes, who came to a meeting I convened last 
week with FEMA, the DoD, and the Department of Homeland 
Security, for helping us determine what happened and how to fix 
it.
    What happened in Hawaii raises some basic policy questions. 
Right now, any city, county, or state can choose to participate 
in this program on missile alerts, and when they do, they gain 
the technical ability to get the word out, but that does not 
make them experts in knowing when a missile is coming. That 
rests with the Department of Defense. It is increasingly clear 
to me that if we get all 50 states and all the territories and 
3,007 counties across the country participating in this 
program, the likelihood of another mistaken missile alert as a 
result of human or bureaucratic error is not zero.
    Local officials have led on disaster response and recovery, 
but if the Federal Government knows a missile is coming, it is 
worth asking if they should be the ones to tell everyone. 
States are laboratories of democracy. They should not be the 
laboratories for missile alerts, which is why this is an 
important question for Congress to consider.
    We have lively debates about federalism, about the role of 
local versus Federal Government. But a missile attack is 
Federal. A missile attack is not a local responsibility. 
Confirmation and notification of something like a missile 
attack should reside with the agency that knows first and knows 
for sure. In other words, the people who know should be the 
people who tell us.
    That is why I'm introducing legislation with Senators 
Harris, Gardner, and others to make it clear that the authority 
to send missile alerts should rest with the Departments of 
Defense and Homeland Security. These agencies have to work with 
the state and local emergency management agencies when they get 
the word out so that the public is safe and informed.
    Thank you again, Chairman Thune and Ranking Member Nelson, 
for your leadership on this issue, and I look forward to 
hearing from the witnesses on where we stand and what we can do 
better.
    The Chairman. Thank you, Senator Schatz, and thank you for 
sharing your experience, and we all look forward to working 
with you to make sure something like that never happens again 
to your constituents or anybody else in this country.
    So the Ranking Member, Senator Nelson, is here.
    Senator Nelson, an opening statement?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. And, by the way, I 
thought yesterday's hearing down at the auto show on autonomous 
vehicles was outstanding. So thank you. I think there's going 
to be a lot of good to come out of that hearing.
    The Chairman. I hope you're right. Very interesting.
    Senator Nelson. If you were told that a ballistic missile 
was inbound, and your loved ones were spread out, what in the 
world would go through your mind? It's exactly what went 
through the mind of Senator Schatz. Regrettably, he knows the 
answer to that question, and he knows it's very real and it's 
very personal. He was there. He received the alert, and it's 
because of that personal connection to this situation and the 
leadership that he has shown in the aftermath that I'm going to 
be here simply to support him in this.
    Nobody should have to go through what the folks of Hawaii 
did. But the flip side of that is we want to make sure that 
there is a system in place so if there is an inbound nuclear 
warhead, our people are alerted.
    When disasters occur, Americans rely not only on emergency 
alerts, but also on our 911 system. But the infrastructure is 
aging, and, frankly, it has been left behind in the digital 
revolution. Congress must make modernizing the 911 system a 
national priority, which is why I've worked with Senator 
Klobuchar to introduce the Next Generation 911 Act of 2017--we 
need a template for moving ahead on a bipartisan basis, and 
this is a good bill to start moving ahead on this issue.
    The Chairman. Thank you, Senator Nelson. That's something, 
hopefully, this committee can work together on and get done for 
the good of all the people in this country and, of course, most 
specifically, for the people of Hawaii.
    We do have a great panel, and we look forward to hearing 
from them this morning. We'll start with Ms. Lisa Fowlkes, who 
is the Chief of Public Safety and Homeland Security Bureau at 
the Federal Communications Commission, which has jurisdiction 
over the integration of all these forms of communication; Mr. 
Scott Bergmann, who is Senior Vice President, Regulatory 
Affairs, CTIA; Mr. Mike Lisenco, who is Chairman of the 
Advocacy Committee, Amateur Radio Relay League, and member of 
the Board of Directors; and Sam Matheny, Executive Vice 
President and Chief Technology Officer at the National 
Association of Broadcasters.
    We'll start, Ms. Fowlkes, with you.
    If you all could confine your oral remarks to five minutes 
or thereabouts, we will make sure that all of your testimony is 
made a part of the written record, and it will give us some 
time to ask questions.
    So, Ms. Fowlkes, please proceed. Welcome.

              STATEMENT OF LISA M. FOWLKES, CHIEF,

          PUBLIC SAFETY AND HOMELAND SECURITY BUREAU,

               FEDERAL COMMUNICATIONS COMMISSION

    Ms. Fowlkes. Thank you. Good morning, Chairman Thune, 
Ranking Member Nelson, and members of the Committee. Thank you 
for the opportunity to appear before you to discuss our 
Nation's emergency alerting systems.
    The false ballistic missile warning issued on January 13 by 
the State of Hawaii was absolutely unacceptable. It resulted in 
widespread panic, and the extended period it took to correct 
the error, nearly 40 minutes, compounded the problem. Looking 
beyond the immediate consequences of the mistake, which were 
serious in and of themselves, this cry of wolf damaged the 
credibility of emergency alert messaging, which can be 
dangerous when a real emergency occurs.
    The Commission acted swiftly to open an investigation into 
the matter. That investigation is ongoing, but based on current 
information, it appears that the false alert was a result of 
two failures. First, simple human error. Second, the state did 
not have safeguards or process controls in place to prevent the 
human error from resulting in the transmission of a false 
alert.
    Last week, the FCC sent two employees to interview 
representatives of the Hawaii Emergency Management Agency and 
other stakeholders. The Hawaii Emergency Management Agency 
tells us that it is working with its vendor to integrate 
additional technical safeguards into its alert origination 
software and has changed its protocols to require two 
individuals to sign off on a transmission of test and live 
alerts.
    We are quite pleased with the level of cooperation we have 
received from the leadership of the Hawaii Emergency Management 
Agency thus far. We are disappointed, however, that one key 
employee, the person who transmitted the false alert, is 
refusing to cooperate with our investigation. We hope that 
person will reconsider.
    Moving forward, the Commission will focus on ways to 
prevent this from happening again. Federal, state, and local 
officials throughout the country need to work together to 
identify any vulnerabilities to false alerts and do what is 
necessary to fix them. We also must ensure that should a false 
alert nonetheless occur, a correction is issued promptly in 
order to minimize confusion.
    Emergency alerting systems provide timely and lifesaving 
information to the public, and we must take all measures to 
bolster and restore the public's confidence in these systems. 
While the incident in Hawaii is very present in our minds, we 
cannot lose sight of the fact that the Wireless Emergency 
Alerts, or WEA, has greatly enhanced public safety.
    In the last 5 years, WEA has been used to issue over 33,000 
emergency alerts. In California, WEA was used four times in 
response to the 2017 wildfires in northern California and 16 
times for the Los Angeles area wildfires. WEA was also used 
extensively in all areas affected by the 2017 hurricanes.
    The Commission has taken significant steps to enhance alert 
capabilities by leveraging advancements in technology. In 
September 2016, the Commission adopted rules to enable wireless 
alerts to contain more content and to enable support for alerts 
written in Spanish.
    When the WEA program launched in 2012, participating 
wireless providers were generally required to target alerts to 
a county or counties affected by the emergency. As of last 
November, all participating wireless providers are now required 
to transmit alerts to a geographic area that best approximates 
the area affected, even if it is smaller than a county. To 
further improve WEA, next Tuesday, the Commission will vote on 
an order that would require participating wireless providers to 
target alerts with an overreach of no more than one-tenth of a 
mile and require carriers to preserve WEA alerts for 24 hours.
    In closing, we look forward to partnering with emergency 
management professionals from your jurisdictions on the 
alerting capabilities that they need to use America's public 
alert and warning systems with confidence during times of 
crisis.
    Thank you, and I look forward to any questions you may 
have.
    [The prepared statement of Ms. Fowlkes follows:]

    Prepared Statement of Lisa M. Fowlkes, Chief, Public Safety and 
      Homeland Security Bureau, Federal Communications Commission
    Good morning, Chairman Thune, Ranking Member Nelson, and Members of 
the Committee. Thank you for the opportunity to appear before you to 
discuss our Nation's emergency alerting systems.
    The false alert issued on January 13th by the State of Hawaii, in 
which recipients were warned of an imminent ballistic missile attack, 
was absolutely unacceptable. It resulted in widespread panic, and the 
extended period it took to correct the error--nearly 40 minutes--
compounded the problem. Looking beyond the immediate consequences of 
the mistake, which were serious in and of themselves, this cry of 
``wolf'' damaged the credibility of alert messaging, which can be 
dangerous when a real emergency occurs.
    The Commission acted swiftly in the wake of this incident to open 
an investigation into the matter. That investigation is ongoing--we had 
investigators on the ground in Hawaii just last week--but based on 
information gathered to date, it appears that the false alert was 
issued as a result of both human error and the state having 
insufficient safeguards and process controls in place to prevent that 
human error from resulting in the transmission of a false alert. The 
Hawaii Emergency Management Agency has advised us that it is working 
with its vendor to integrate additional technical safeguards into its 
alert origination software, and has changed its protocols to require 
two individuals to sign off on the transmission of tests and live 
alerts.
    Moving forward, the Commission will focus on what steps need to be 
taken to prevent a similar incident from happening again. Federal, 
state, and local officials throughout the country need to work together 
to identify any vulnerabilities to false alerts and do what's necessary 
to fix them. We also must ensure that corrections are issued 
immediately after a false alert goes out in order to minimize panic and 
confusion. Emergency alerting systems provide timely and life-saving 
information to the public, and we must take all measures to bolster and 
restore the public's confidence in these systems.
    The incident in Hawaii is very present in our minds. But I don't 
want this incident to detract from the benefits of and success stories 
behind wireless emergency alerts. In this respect, I would like to 
describe the FCC's efforts to support Wireless Emergency Alerts, 
commonly known as ``WEA,'' since the system was deployed in April 2012. 
In the last 5 years, WEA has been used to issue over 33,000 emergency 
alerts. WEA helps individuals take protective action in cases of 
threats to life and property. The National Weather Service alone has 
sent well over 21,000 WEA alerts. For example, we understand that local 
California officials used WEA four times in response to the 2017 
wildfires in Northern California, and sixteen times for the Los Angeles 
area wildfires. Representatives from the California Governor's Office 
of Emergency Services and officials in Marin and Mendocino Counties 
reported successful use of WEA to move citizens in their jurisdictions 
to safety. WEA was also used extensively in all areas affected by the 
2017 hurricanes, including 21 WEA alerts sent in Puerto Rico alone.
    WEA also helps to recover missing children. In 2016 alone, 179 
AMBER Alerts were issued in the U.S. involving 231 children. Since the 
system was deployed in 2012, WEA has been credited with the safe return 
of 25 missing children. For example, on May 14, 2016, in North Las 
Vegas, Nevada, a 22-month-old child was abducted and driven off in a 
stolen car. An AMBER Alert was immediately activated and sent out to 
cell phones using the WEA system. The kidnappers took the child to 
their friend's house, and while they were there, the WEA Alert began to 
arrive on everyone's phone. The abductors tried to flee, but the friend 
took the child and the car keys, called 911, and brought the child to a 
police station. The child was safely rescued, and the kidnappers were 
arrested.
    The Commission places the highest priority on ensuring that 
emergency management authorities and first responders have the most up-
to-date tools available to respond to such events. Since WEA was first 
deployed in 2012, the Commission has taken significant steps to enhance 
federal, state, and local alert and warning capabilities to leverage 
advancements in technology.
    In September 2016, the Commission adopted rules to enable wireless 
alerts to contain more content by increasing message length from 90 to 
360 characters and by supporting embedded phone numbers and URLs. It 
also took action to enable support for alerts written in Spanish and 
make it easier for state and local authorities to test WEA, train 
personnel, and raise public awareness about the service.
    The Commission also recognized that it is critical for emergency 
managers to be able to geographically target alerts to only those 
phones located in areas affected by an emergency. When the WEA program 
launched in 2012, participating wireless providers were generally 
required to send the alerts to a geographic area no larger than the 
county or counties affected by the emergency situation. As of last 
November, all participating wireless providers are now required to 
transmit alerts to a geographic area that best approximates the area 
affected by the emergency situation, even if it is smaller than a 
county.
    But the Commission is not stopping there. Next Tuesday, the 
Commission will vote on an Order that would require participating 
wireless providers to target alerts with an overreach of no more than 
one tenth of a mile. Public safety officials strongly support our 
proposed action. For example, APCO recently hailed the Chairman Pai's 
proposal as a ``dramatic enhancement to WEA'' that will provide public 
safety professionals with increased confidence that the system will be 
able to deliver emergency information more efficiently.\1\ State and 
local governments also support the Chairman's proposal. For example, 
Harris County states that the Chairman proposal ``will empower local 
public safety officials with the tools necessary to keep WEA relevant'' 
and that if ``adopted in a way that clearly outlines intended 
expectations and requirements, it will be the single most important 
improvement to the Nation's alerts and warnings infrastructure in 
years.'' \2\
---------------------------------------------------------------------------
    \1\ Ex Parte Letter from Jeffrey S. Cohen, Chief Counsel, APCO, PS 
Docket No. 15-91 (Jan. 12, 2018).
    \2\ Ex Parte Letter from Francisco Sanchez, Deputy Emergency 
Management Coordinator, Harris County, PS Docket No. 5-91 (Jan. 19, 
2018).
---------------------------------------------------------------------------
    Enhanced geo-targeting is one among several pertinent improvements 
currently before the Commission that would make WEA a more powerful 
tool for saving lives during emergencies. By matching alerts to phones 
actually located within the affected area, the Commission's proposal 
would assist emergency response efforts and instill confidence in the 
public's reliance on WEA. Because people will be receiving alerts that 
are relevant to them, they will be less likely to opt out of the 
program and more likely to take the alerts they receive seriously. We 
are also currently considering how to provide emergency managers with 
the ability to transmit alerts in languages in addition to English and 
Spanish, alerts that can contain pictures, and alerts that could 
provide the public with the ability to reply. While WEA is a powerful 
alert and warning tool, it is also important to note that it is only 
one among several tools available to emergency managers to alert and 
warn their communities.
    For example, the Emergency Alert System, or EAS, is the traditional 
system used to provide alerts and warnings to the public over 
broadcast, cable and satellite systems, and remains a vital tool for 
emergency managers, state and local authorities. The Commission has 
been working to modernize the EAS to ensure that it remains a relied 
upon and useful tool. For example, just this past December the 
Commission adopted a new ``blue alert'' code for both EAS and WEA that 
will allow alert originators to provide targeted information to the 
public regarding threats to law enforcement and to help apprehend 
dangerous suspects. In addition, in November the Chairman circulated an 
item for the Commission's consideration that would modernize and 
streamline the filing process for EAS state plans.
    Over the past several years, the FCC has also worked closely with 
FEMA to conduct nationwide tests of the EAS to assess its reliability 
and effectiveness. The FCC has also successfully deployed the EAS 
Electronic Reporting System, or ETRS, a user-friendly database that 
allows the over 25,000 EAS participants to report test results in close 
to real time. The most recent test was conducted on September 27, 2017, 
and our initial analysis of the ETRS results shows improvements in most 
areas. For example, results indicate more than 95 percent of 
participants received the test alerts, and nearly 92 percent 
successfully retransmitted the alert--both up from the previous year. 
Further, more than twice as many EAS Participants retransmitted the 
Spanish language version of the alert than was the case in 2016. In 
all, we are encouraged by the results and will continue to strive to 
find ways to enhance the EAS as well.
    In closing, we look forward to partnering with emergency management 
professionals from your jurisdictions on the alerting capabilities that 
they need to use the EAS and WEA with confidence during crises when 
every second counts.
    Thank you for your consideration, and I look forward to any 
questions you may have.

    The Chairman. Thank you, Ms. Fowlkes.
    Mr. Bergmann.

STATEMENT OF SCOTT BERGMANN, SENIOR VICE PRESIDENT, REGULATORY 
                         AFFAIRS, CTIA

    Mr. Bergmann. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, on behalf of CTIA, thank you for the 
opportunity to testify about the critical and successful role 
of Wireless Emergency Alerts.
    CTIA commends this Committee for its focus today on this 
issue and for your leadership on it over the last decade, 
extending back to the passage of the WARN Act in 2006 which 
created the Wireless Emergency Alert, or WEA, program, a 
partnership between the wireless industry, government, and 
public safety officials.
    Since its launch 5 years ago, Wireless Emergency Alerts 
have become a critical resource for hundreds of millions of 
Americans who rely on mobile phones every day. Today, wireless 
providers serving more than 99 percent of U.S. subscribers 
voluntarily participate in WEA. More than 33,000 WEA alerts 
have been sent, helping to locate those in danger and warn of 
imminent threats or dangers.
    CTIA members are deeply committed to ensuring that we 
remain a trusted and effective source for the American public. 
So the recent false alert in Hawaii underscores the importance 
of the functionality, integrity, and credibility of our 
Nation's Emergency Alert System. With that in mind, my 
testimony will address the vital role that WEA plays, our 
ongoing efforts to enhance its capabilities, and the importance 
of maintaining the system's integrity.
    A decade ago, this committee recognized the value of 
Wireless Emergency Alerts to reach nearly every American. Now, 
as more than half of American households are wireless only, WEA 
has become an essential tool for public safety officials to 
reach Americans wherever they are. WEA is part of our broader 
national alerting system.
    Federal, state, and local authorities transmit emergency 
messages to FEMA. FEMA authenticates and formats messages for 
distribution to the various national alerting systems, and 
wireless providers deliver authorized WEA messages to the 
targeted area as determined by alert authorities. Wireless 
providers do not control message content and do not exercise 
discretion over whether to transmit messages.
    Because local authorities can target WEA alerts to a 
particular area, they're extremely effective at reaching those 
Americans directly impacted by an emergency. WEA's unique sound 
and vibration help ensure that everyone is aware of the alert. 
Wireless Emergency Alerts have helped to return abducted 
children; they have warned millions of people in the path of 
severe weather events, like flooding, tornadoes, and wildfires; 
and they've helped law enforcement catch terror suspects in the 
2013 Boston Marathon bombing and 2016 Chelsea bombing in New 
York City.
    We continue to expand WEA's capabilities. In the past year, 
the FCC has adopted rules to expand the content that 
authorities can send to consumers, adding additional 
characters, Spanish language, Blue Alerts, and downloadable 
content from embedded links, as well as support for additional 
state and local testing. We've supported these enhancements 
because our members are committed to the proven lifesaving 
success of WEA.
    Next week, the FCC plans to adopt an order that further 
enhances WEA's geo-targeting capabilities. Today, WEA alerts 
can be targeted down to the cell sector level, a significant 
improvement over WEA's initial county level targeting. Given 
the expanding public safety mission for WEA, CTIA supports the 
FCC's proposed enhanced geo-targeting framework, which can help 
public safety minimize over-alerting through innovative, 
device-based solutions. Significant standards, deployment, and 
testing work still needs to be done to support this capability. 
For this reason, we'll be challenged to meet the FCC's proposed 
timeline of November 2019, but the wireless industry will work 
intently to do so.
    Finally, the false alert in Hawaii underscores that public 
confidence in our national alerting systems must remain our 
highest priority. Alert originators must send warnings 
appropriately and judiciously, FEMA must authenticate messages 
quickly and accurately, and providers must deliver messages to 
the targeted area. We commend this committee and Chairman Pai 
for working quickly to identify lessons learned from this 
event, and we appreciate Commissioner Rosenworcel's call for 
additional best practices.
    There will be many lessons learned, but this event also 
demonstrated that the technical capabilities of the WEA system 
work. For this reason, policymakers and the public should have 
confidence that in the event of a real emergency, authenticated 
information can be disseminated rapidly and effectively through 
the Wireless Emergency Alert System. CTIA is proud of the 
critical role that WEA plays in our national alert system and 
is committed to working collaboratively to maintain public 
confidence.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Bergmann follows:]

     Prepared Statement of Scott Bergmann, Senior Vice President, 
                        Regulatory Affairs, CTIA
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, on behalf of CTIA and our member companies throughout the 
wireless ecosystem, thank you for the opportunity to appear before you 
today to discuss the critical and successful role of Wireless Emergency 
Alerts within our Nation's emergency alert system.
    CTIA commends the leadership of this Committee for its passage of 
the Warning, Alert, and Response Network (WARN) Act, which created the 
Wireless Emergency Alert (WEA) program, a public-private partnership 
between the wireless industry, government, and alert originators. The 
Wireless Emergency Alert system was launched in 2012 and is jointly 
implemented and administered by the Federal Communications Commission 
(FCC) and Federal Emergency Management Agency (FEMA). In the five years 
since the launch of the Wireless Emergency Alert system, it has become 
a critical resource for the hundreds of millions of Americans who rely 
on their mobile phones every day.
    CTIA and its member companies are proud of the wireless industry's 
role in the Wireless Emergency Alerts system. Today, all four national 
wireless providers and dozens of regional providers, serving more than 
99 percent of all U.S. subscribers, are voluntarily participating in 
the Wireless Emergency Alert system; transmitting thousands of alerts 
each year and helping our public safety professionals save lives.\1\ 
Ensuring that Wireless Emergency Alerts remain a trusted source of 
emergency information for the American public is one of our highest 
priorities.
---------------------------------------------------------------------------
    \1\ Wireless Emergency Alerts, Order on Reconsideration, 32 FCC Rcd 
9621, 9625 n.28 (2017); see also, CTIA, How Wireless Emergency Alerts 
Help Save Lives, https://www.ctia.org/consumer-tips/how-wireless-
emergency-alerts-help-save-lives (last visited Jan. 23, 2018).
---------------------------------------------------------------------------
    The mistaken alert that was issued in Hawaii on January 13, 2018 is 
of course at top of mind for policymakers, CTIA and its member 
companies, all WEA stakeholders, and the public writ large. The Hawaii 
incident underscores to all of us the importance of the functionality 
and integrity--and credibility--of our Nation's emergency alert 
systems. Any incident that affects the public's confidence in emergency 
alerts risks undermining the effectiveness of all alerting systems, 
including WEA. We lose the effectiveness of emergency alerting if 
people simply ignore or opt-out of receiving these critical messages.
    For this reason, we are deeply committed to doing our part to 
ensure that Wireless Emergency Alerts remain a trusted and effective 
tool for public safety. With that in mind, I would like to address the 
program's success, the cooperative voluntary framework on which WEA 
operates, ongoing efforts to enhance the geographic targeting (geo-
targeting) of alert messages, and, finally, the importance of 
maintaining the system's integrity.
The Success of Wireless Emergency Alerts
    The Wireless Emergency Alert system is the newest and most 
effective means the Nation has for warning Americans of imminent 
dangers and other incidents requiring immediate action. A decade ago, 
Congress and this Committee wisely recognized the value of wireless in 
reaching nearly every American and set in motion the creation of the 
Wireless Emergency Alert system. Now, as more than half of American 
households have cut the cord and are ``wireless only,'' \2\ alerts and 
warnings sent to our mobile devices are the obvious choice for public 
safety officials to make sure we can take action wherever we are, 
whatever we are doing.
---------------------------------------------------------------------------
    \2\ Stephen J. Blumberg & Julian V. Luke, Ctrs. for Disease Control 
& Prevention, Nat'l Ctr. for Health Statistics, Wireless Substitution: 
Early Release of Estimates From the National Health Interview Survey, 
July-December 2016 (May 2017); see also, Alina Sleuth, Nat'l Pub. 
Radio, The Daredevils Without Landlines--And Why Health Experts Are 
Tracking Them (May 4, 2017), 
https://www.npr.org/sections/alltechconsidered/2015/12/03/458225197/
the-daredevils-without
-landlines-and-why-health-experts-are-tracking-them.
---------------------------------------------------------------------------
    Wireless Emergency Alerts delivered to wireless devices in a 
targeted area--with their unique sounds, high volumes, and forceful 
vibrations--save lives. The WEA system sends out Amber Alerts and 
shelter-in-place directives, warns citizens of fires, floods, and 
tornados, and otherwise keeps the public apprised of real threats. 
Because WEA messages are delivered to consumers with capable mobile 
devices in an area targeted by local authorities, they are an extremely 
effective mechanism for reaching those Americans that are directly 
impacted by an emergency. It is no wonder that some have called 
Wireless Emergency Alerts ``the government's most potent public 
notification system.'' \3\
---------------------------------------------------------------------------
    \3\ Aaron C. Davis & Sandhya Somashekhar, The only California 
county that sent a warning to residents' cellphones has no reported 
fatalities, Wash. Post, Oct. 13 2017, https://www
.washingtonpost.com/investigations/the-only-california-county-that-
sent-a-warning-to-residents-
cellphones-has-no-reported-fatalities/2017/10/13/b28b5af4-b01f-11e7-
a908-a3470754bbb9_story
.html?utm_term=.cd24bb9ecf9chttps://www.washingtonpost.com/
investigations/the-only-califor
nia-county-that-sent-a-warning-to-residents-cellphones-has-no-reported-
fatalities-/2017/10/13/b2
8b5af4-b01f-11e7-a908-a3470754bbb9_story.html?utm_term=.cd24bb9ecf9c.
---------------------------------------------------------------------------
    Since 2012, more than 33,000 Wireless Emergency Alerts have been 
sent to consumers with WEA-capable devices.\4\ These messages have 
asked the public for help in locating someone in danger or warned 
Americans of imminent threats or disasters.
---------------------------------------------------------------------------
    \4\ Mark Lucero, Fed. Emergency Mgmt. Agency, Integrated Public 
Alert & Warning System16 16 (Aug. 8, 2017), https://
view.officeapps.live.com/op/view.aspx?src=https%3A%2F%2Fwww.nap
sgfoundation.org%2Fwp-
content%2Fuploads%2F2017%2F08%2FFEMA_IPAWS_Keynote_MarkLu
cero_20170708.pptxhttps://view.officeapps.live.com/op/
view.aspx?src=https%3A%2F%2Fwww.-
napsgfoundation.org%2Fwp-
content%2Fuploads%2F2017%2F08%2FFEMA_IPAWS_Keynote_
Mark-Lucero_20170708.pptx.
---------------------------------------------------------------------------
    For example, in 2015, an AMBER Alert for a missing child was sent 
through the WEA system to wireless consumers in Minnesota. A citizen in 
the area received the alert on their smartphone, saw a black Honda 
Civic that matched the description issued in the alert, and called 9-1-
1. Authorities responded and rescued the child from the abductor. This 
is just one of many such stories--a total of 910 children have been 
successfully recovered through the AMBER Alert system, as of January 8, 
2018.\5\
---------------------------------------------------------------------------
    \5\ Amber Alerts, Nat'l Ctr. for Missing & Exploited Children, 
http://www.missingkids.com/gethelpnow/amber (last visited Jan. 23, 
2018).
---------------------------------------------------------------------------
    Wireless Emergency Alerts have also been used extensively to warn 
the public of severe weather emergencies. This past fall, more than 300 
Wireless Emergency Alerts warned people around Houston, Texas about 
Hurricane Harvey and its rising floodwaters, more than 200 Wireless 
Emergency Alerts warned Floridians about the strong winds of Hurricane 
Irma, and Wireless Emergency Alerts played a critical role in warning 
many Californians about the devastating wildfires.\6\ In 2013, 29 
children were saved from a tornado ripping through a soccer building in 
Windsor, Connecticut when the camp manager received a Wireless 
Emergency Alert seconds before the tornado touched down.\7\ Even as the 
system was only months old in 2012, public safety officials were using 
Wireless Emergency Alerts to warn the people in the path of Superstorm 
Sandy.\8\
---------------------------------------------------------------------------
    \6\ See generally CTIA, Hurricane Harvey: Resiliency & Relief, 
https://www.ctia.org/hurricane-harvey/ (last visited Jan. 16, 2018); 
Davis & Somashekhar, supra note 3; Richard Perez-Pena, Fire Alert Sent 
to Millions of Cellphones Was California's Largest Warning Yet, N.Y. 
Times, Dec. 7, 2017, https://www.nytimes.com/2017/12/07/us/cellphone-
alerts-california-fires.html.
    \7\ Rick Wimberly, Powerful Wireless Emergency Alerts Success 
Stories at Congressional Hearing, Emergency Management, Oct. 24, 2013, 
http://www.govtech.com/em/emergency-blogs/
alerts/Powerful-Wireless-Emergency-Alerts-Success-Stories-at-
Congressional-Hearing.html; see also, David Owens & Chloe Miller, 
National Weather Service Confirms Two Tornadoes Monday, Hartford 
Courant, July 2, 2013, http://articles.courant.com/2013-07-02/news/hc-
tornado-warning-0702-20130701_1_windsor-locks-dome-national-weather-
service-confirms.
    \8\ Wimberly, supra note 7.
---------------------------------------------------------------------------
    Local emergency officials have also used Wireless Emergency Alerts 
to inform the public of ongoing law enforcement and terrorist threats, 
and to enlist their assistance. In 2013, Massachusetts authorities sent 
a shelter-in-place Wireless Emergency Alert while apprehending the 
suspects in the Boston Marathon Bombing.\9\ And in 2016, the City of 
New York sent a description of the suspect in the Chelsea Bombing 
through a Wireless Emergency Alert, leading to the suspect's arrest 
within hours of the alert.\10\
---------------------------------------------------------------------------
    \9\ Id.
    \10\ David Goodman & David Gelles, Cellphone Alerts Used in New 
York to Search for Bombing Suspect, N.Y. Times, Sept. 19, 2016, https:/
/www.nytimes.com/2016/09/20/nyregion/cellphone-alerts-used-in-search-
of-manhattan-bombing-suspect.html.
---------------------------------------------------------------------------
    For more than a decade, the wireless industry has worked diligently 
to develop and deploy this capability in its networks and devices. 
Through cell broadcast technology unique to the WEA system, mobile 
providers can broadcast Wireless Emergency Alerts from cell-sites in 
areas targeted by local emergency officials to wireless devices in a 
timely manner. Today, there are millions of devices throughout the U.S. 
that are capable of receiving these critical messages.
    Wireless Emergency Alerts are part of the broader national alerting 
system, known as the Integrated Public Alert and Warning System 
(IPAWS), managed by FEMA. Through IPAWs, authorized federal, state, and 
local authorities, known as alert originators, transmit emergency 
messages to a FEMA-operated system. FEMA's system authenticates and 
formats the message for distribution across a variety of channels, 
including the WEA system. Of note, the substance and distribution 
channel of an alert is determined by the federal, state, or local 
government that originates the alert. Wireless providers deliver 
authorized WEA messages to the target area identified by the alert 
originator without input into the content of a message or discretion 
over whether or not to transmit it.
    Reflecting the evolution of our mobile wireless networks and 
devices, the capabilities of the Wireless Emergency Alert system 
continue to advance in a remarkably short timeframe. In less than six 
years since the voluntary Wireless Emergency Alert system was first 
launched, the FCC has adopted various updates and improvements--and is 
poised to adopt another one next week. In 2016, the FCC put rules in 
place to increase the maximum alert length from 90 characters to 360 
characters for LTE wireless systems and future networks, as well as 
support additional local and state testing capabilities, Spanish-
language alerts, and embedded links and phone numbers. In particular, 
the FCC noted that allowing embedded references to be included in WEA 
alerts ``will dramatically improve WEA's effectiveness'' and that 
commenters identified this capability as ``the most critical among all 
of our proposed improvements to WEA.'' \11\
---------------------------------------------------------------------------
    \11\ Wireless Emergency Alerts, Report and Order and Further Notice 
of Proposed Rulemaking, 31 FCC Rcd 11112, 1113711137-38 (2016).
---------------------------------------------------------------------------
    CTIA's member companies are working hard to add these new 
capabilities into the WEA system, and have already answered public 
safety's call to ensure that alerts are capable of including embedded 
links so that consumers will be able to go to a website to see a photo 
of the missing child, or a suspected terrorist.
Enhanced Geo-targeting Requirements
    In the coming days, the FCC plans to adopt another order focused on 
the geo-targeting capabilities of the WEA system. The FCC initially 
mandated targeting at the county level, but many participating 
providers began voluntarily supporting geo-targeting of Wireless 
Emergency Alerts well below the county level to enable local officials 
to minimize over-alerting. An appropriately targeted WEA message can 
mitigate the possibility that an alert will cause distress or panic in 
areas not actually at risk and enhance public confidence in the 
emergency alert system. Today, participating providers deliver Wireless 
Emergency Alerts to a targeted area that best approximates the area 
identified by the alert originators down to the cell-sector level.
    While the ability to geo-target Wireless Emergency Alerts down to 
the cell-sector level will remain a constant feature of the system, we 
share the expressed goal of public safety leaders to harness innovative 
location technologies to further minimize the possibility of over-
alerting. For this reason, CTIA supports the framework for enhancing 
the geo-targeting capabilities of the WEA system that the FCC will 
consider next week. If adopted, a participating wireless provider would 
be required to match the alert area by distributing the WEA message to 
100 percent of the alert area that the carrier's network serves with no 
more than a tenth of a mile overshoot. To deliver this new capability, 
wireless providers will shift from a solely network-based approach to 
target the alert area to one that also harnesses location capabilities 
within mobile devices. Once available, this capability will give local 
alert originators an additional tool to minimize the possibility that 
someone will receive an irrelevant Wireless Emergency Alert.
    The draft geo-targeting order proposes an aggressive implementation 
timeline that will present a significant challenge for wireless 
providers and device manufacturers. As the proposed Order notes, 
significant standards, deployment and testing work remains to support 
this enhanced geo-targeting capability throughout the chain of the 
alert--from alert originators to FEMA's gateway to wireless networks to 
mobile devices. If adopted, the wireless industry--including 
participating providers and device manufacturers--will work intently, 
as it always has, in an effort to meet the FCC's aggressive deadline.
Maintaining Public Confidence After Hawaii
    The January 13, 2018 incident in Hawaii has underscored for all of 
us--government and industry alike--that the success of Wireless 
Emergency Alerts relies on the public's trust. Trust in the system 
hinges on execution. Alert originators must send Wireless Emergency 
Alerts appropriately and judiciously; the FEMA authentication and 
verification process must be expeditious and robust; and participating 
wireless providers must deliver WEA messages to the targeted area. Only 
this way will the public know that when a Wireless Emergency Alert is 
sent, the danger is real.
    This Committee should be commended for focusing on what errors led 
to the mistaken Hawaii alert and on drawing out lessons learned. Going 
forward, we should strive to make sure that another harm does not take 
root--namely, the danger that the next time an alert is issued, that 
some will not take it seriously or refuse to evacuate.
    CTIA and the wireless industry also commend FCC Chairman Pai for 
swift action to investigate the cause of this incident and appreciate 
FCC Commissioner Jessica Rosenworcel's recent recommendations and 
suggestions for new best practices around the training and use of our 
Nation's emergency alert system. Notably, Congress recognized the need 
to train and equip our alert originators to more effectively use our 
Nation's emergency alert system when the IPAWS Modernization Act became 
law in 2015. And in 2016, the FCC encouraged emergency management 
agencies to engage in proficiency training exercises that could help 
minimize system failures and ensure that any failures are corrected 
during a period when no real emergency exists. CTIA strongly supports 
all of these efforts and encourages FEMA and other public-safety 
authorities to offer training opportunities for alert originators that 
promise to bolster WEA's utility and credibility going forward.
    While we expect there are many lessons to be learned from the 
experience in Hawaii, and many will be cautionary, we should also 
acknowledge that wireless networks and devices performed exactly as 
designed and effectively delivered and presented the alert message as 
received from the FEMA gateway. The speed and effectiveness of its 
delivery should give policymakers and the public confidence that in the 
event of a real emergency, the Wireless Emergency Alert system will 
disseminate information rapidly and accurately to Americans--wherever 
they may be.
                                 * * *
    CTIA and the wireless industry are proud of the critical role that 
Wireless Emergency Alerts play in our Nation's emergency alert system, 
and are committed to continue working collaboratively with public 
safety professionals at every level of our government to maintain 
public confidence in Wireless Emergency Alerts.
    Thank you for the opportunity to testify today. If CTIA can provide 
any additional information you would find helpful, please let us know.

    The Chairman. Thank you, Mr. Bergmann.
    Mr. Lisenco.

  STATEMENT OF MICHAEL LISENCO, THE NATIONAL ASSOCIATION FOR 
                         AMATEUR RADIO

    Mr. Lisenco. Good morning, Chairman Thune, Ranking Member 
Nelson, and distinguished members of the Committee. It is a 
great privilege to address you this morning in my capacity as a 
member of the Board of Directors of the American Radio Relay 
League, the National Association for Amateur Radio.
    ARRL has approximately 175,000 members throughout the 
United States, and we represent the interest of the 750,000 
licensed amateur or ham radio operators in the U.S. Amateur 
radio is an avocational pursuit. We are radio experimenters and 
we are communicators, but there's also a very serious side to 
amateur radio. It is far more than a hobby.
    With our license from the FCC comes a responsibility to 
promote emergency communications during times of disaster. The 
ARRL maintains memoranda of understanding with the U.S. 
military, FEMA, and DHS. We provide all of the emergency 
communications for the American Red Cross and the Salvation 
Army. To quote former FEMA Administrator Craig Fugate, ``As 
much as we think we are sophisticated with technology, things 
break. Seeing how amateur radio in a disaster, in a crisis, 
oftentimes was the one thing that was still up and running, a 
ham transmitting can mean the difference between life and 
death.''
    Amateur radio operators are included in emergency 
communications plans in every state of the union. The role 
played by hams in disasters was on full display in the fall of 
2017, which saw four major hurricanes make landfall in the 
United States and its territories. These storms caused 
significant damage of Florida, Texas, Puerto Rico, and the 
Virgin Islands. In advance of, during, and in the aftermath of 
each one, trained amateur radio operators using radio stations 
in their homes and portable and mobile facilities responded in 
large numbers.
    Hams provided critical weather spotting information from 
their residences to the National Weather Service and the 
National Hurricane Center. They joined dozens of their brethren 
in Puerto Rico and the U.S. Virgin Islands after Hurricane 
Maria to provide restoration communications for the U.S. 
military, FEMA, DHS, and first responders. They provided health 
and welfare communications where no other method of 
communication was available.
    They provided all of the communications for the Red Cross 
and the Salvation Army. The Red Cross requested an ARRL 
dispatched an additional 50 amateur radio operators equipped 
with emergency communications kits outfitted free of charge by 
ARRL to help restore communications in the immediate aftermath. 
And, as discussed in my written testimony, they did a multitude 
of other things, all at no cost to the public or to the Federal 
Government.
    In Hawaii, our teams are prepared to assist in the case of 
any emergency, whether natural or manmade. For example, in the 
immediate aftermath of Maria, an amateur operator in Maui was 
highlighted on Hawaii News Now for his work in connecting a 
Maui family with relatives in Puerto Rico. He did so using an 
effective outdoor antenna and a station from his residence, 
which he would also utilize in the event of a disaster in Maui.
    After the January false alarm, MSNBC's Left Field reported 
that, ``In the case of electromagnetic pulse from a blast, 90 
percent of the people will be without communication, and ham 
radio is actually one of the ways that you will be able to hear 
what is happening throughout the islands, whether or not people 
are OK, who is alive.''
    While ARRL and the amateur radio community rarely need 
anything from the Federal Government, what we must have is an 
effective outdoor amateur radio antenna in order to practice 
our avocation on our properties. The ability to practice our 
craft is crucial to our being ready to perform when needed in a 
crisis. To do that, we must have some sort of effective outdoor 
antenna. Deed restricted communities undermine the ability of 
the amateur radio community to be ready when disaster strikes. 
These restrictions prevent any outdoor antennas of any size or 
height. Today, 90 percent of all new housing starts are done so 
under the restrictions, all of which preclude amateur radio 
antennas.
    What Senators Wicker and Blumenthal have done with the 
Amateur Radio Parity Act is to strike a necessary balance 
between a ham's desire to install an antenna and the HOA's 
right to govern the size and placement of these antennas. It is 
important to note that the bill is different than the 
legislation opposed by Ranking Member Nelson in 2015. At that 
time, the distinguished senator from Florida expressed 
reservations about the legislation, stating that he supported 
amateur radio, but, ``there must be a happy compromise.''
    Based on his stated concerns, ARRL began intense 
negotiations with Community Associations Institute, the only 
national association for homeowners' associations, lasting 
several months. These discussions culminated in a happy 
compromise endorsed by CAI and ARRL, as well as the American 
Red Cross and the Salvation Army, and the compromise bill has 
passed the House by voice vote twice. We hope that this 
committee will extend its support to the Wicker-Blumenthal 
bill, S. 1534, to ensure that the amateur radio community can 
continue to be relied upon when a disaster strikes.
    Again, I thank the Committee for the opportunity to speak 
to you today about the role of amateur radio in a disaster. I 
look forward to answering any questions.
    [The prepared statement of Mr. Lisenco follows:]

Prepared Statement of Michael Lisenco, on behalf of ARRL, the national 
                     association for Amateur Radio
I. Summary of Testimony
    1. In emergencies, prior to and during disasters and their 
immediate aftermath, when other communications systems have failed or 
are overwhelmed, volunteer Amateur Radio operators are ready, willing, 
able and prepared to provide alerting information, restoration 
communications; interoperable communications for first responders which 
lack that capability; health and welfare message traffic, and 
operations and support communications for disaster relief organizations 
and served agencies.
    2. Radio Amateurs quickly re-establish communications during that 
critical window of time between a disaster's occurrence and the re-
establishment of normal communications.
    3. Amateur Radio operators contributed substantially to the 
dissemination of accurate information following the recent missile 
alert in Hawaii; and Amateur Radio is a key component of communications 
planning in the event of an actual ballistic missile attack in Hawaii.
    4. The extensive Amateur Radio deployment of 50 volunteers from the 
U.S. mainland to Puerto Rico, and the long-term dedication of more than 
75 resident Amateur Radio operators in the first few days of the 
recovery effort following the devastation there was the best example of 
the value of Amateur Radio in disaster relief communications. Virtually 
all communications infrastructure on the Island was destroyed or 
crippled by the high winds. Amateur Radio operators provided 
restoration communications for weeks following the hurricane, and in 
fact local radio Amateurs are still providing communications for power 
utilities.
    5. The value of Amateur Radio in disasters, and in emergency 
alerting, weather spotting and in message traffic relay for served 
agencies is due not only to the extensive training and the ubiquitous 
geographic distribution of residential Amateur Radio stations 
throughout the United States. It is due also to the fact that hardened 
Amateur Radio stations with effective outdoor antennas capable of 
operation on multiple frequency allocations throughout the radio 
spectrum at a moment's notice are available ahead of time. Absent that, 
Amateur radio cannot provide the kind of volunteer public service 
communications for which it is deservedly well-known.
    6. Had the level of devastation that occurred in Puerto Rico 
happened in Hawaii instead, the Amateur Radio response that was 
provided so effectively after Hurricane Maria could not have been 
provided to the same extent in Hawaii. The difference is that in Puerto 
Rico, there is not the same level of ubiquitous, preclusive private 
land use regulations that preclude the installation of effective 
outdoor antennas at the licensees' residences. These must be in place 
and operational well before a disaster occurs.
    7. Given the prevalence and increasing numbers of private land use 
regulated communities in the United States, residential Amateur Radio 
antennas cannot be installed or maintained in most of them. An Amateur 
Radio licensee who must live in a deed restricted community currently 
will almost inevitably be subject to either (1) a complete prohibition 
of his or her Amateur Radio operation, or (2) the unlimited 
jurisdiction of a community association or architectural control 
committee or board which makes decisions concerning Amateur Radio 
antennas without any standards or limits whatsoever.
    8. There is now pending before this Committee the Amateur Radio 
Parity Act of 2017. The House version of this Bill, H.R. 555 passed the 
House unanimously in January of 2017. The current Senate Bill, S. 1534 
was introduced in July of 2017 by Senators Wicker and Blumenthal. This 
is a balanced, completely bipartisan bill that would fully protect both 
the entitlement of Amateur Radio volunteers to be able to utilize their 
FCC-issued licenses to provide emergency, disaster relief and public 
service communications, while at the same time protecting the aesthetic 
concerns and the jurisdiction of homeowners' associations. The Bill is 
supported by ARRL and the Community Associations Institute (CAI) which 
is the only national association of homeowners' associations. ARRL and 
CAI, at the urging of members of this Committee, cooperatively and 
carefully negotiated the precise, current language of the Bill, and 
both organizations have stated their support for it. Homeowner's 
associations can enact reasonable written rules governing height, 
location, size and aesthetic impact of, and installation requirements 
for, outdoor antennas and support structures for amateur 
communications. Absent this legislation, the volunteer emergency 
communications services provided by Amateur Radio will be precluded. We 
urge the Committee in the strongest terms to please approve and send 
this legislation forward without delay.
     Statement of Michael Lisenco on behalf of ARRL, the national 
                     association for Amateur Radio
    ``. . . After sheltering in place, you basically turn on AM/FM 
radio for word from Hawaii Civil Defense and other authorities. The 
story we are working on for MSNBC Left Field is that, in the case of 
electromagnetic pulse from a blast, and they expect. . .90 percent of 
the people will be without communication, and ham radio is actually one 
of the ways that you will be able to hear what is happening throughout 
the islands, whether or not people are OK, who is alive, where that 
might be. Again, let's be very clear, this is a false alarm, but if it 
were to happen they have a system in place, a very specific, stringent, 
structured system for this, if this was to happen.''
    Joel Soboroff, reporting for MSNBC's Left Field from Waikiki Beach 
on Saturday, January 13, 2018. http://www.msnbc.com/msnbc/watch/
breaking-down-the-false-alarm-hawaii-missile-threat-1136479811623
                                 ******
    Thank you, Chairman Thune, Ranking Member Nelson and other members 
of the Committee for this opportunity to testify on the topic of 
emergency alerting and emergency communications.
The Amateur Radio Service
    I have had the privilege of serving for the past 5 years as a 
member of the Board of Directors of ARRL, the national association for 
Amateur Radio (formally known as the American Radio Relay League, 
Incorporated). I also chair its legislative advocacy committee. ARRL is 
a Connecticut non-profit association which has for more than a century 
represented and advocated the interests of the Nation's 750,000 Amateur 
Radio operators, all of whom are licensed by the Federal Communications 
Commission to serve the public, especially in times of natural and 
other disasters. Amateur Radio exists for a number of reasons, 
principal among which (as the FCC regulations put it) is its value ``to 
the public as a voluntary noncommercial communication service, 
particularly with respect to providing emergency communications.'' The 
FCC has at various times described the Amateur Service as a ``model of 
volunteerism'' and a ``priceless public benefit.''
    Amateur Radio operators are not first responders. But in 
emergencies, and during disasters and their immediate aftermath, when 
other communications systems have failed, volunteer amateur radio 
operators are ready, willing, able and prepared to provide restoration 
communications; interoperable communications for first responders which 
lack that capability; operations and support communications for 
disaster relief organizations and served agencies such as the American 
National Red Cross and the Salvation Army, and as ubiquitous sources of 
information for emergency alerting. Amateur Radio is durable and is not 
susceptible to the same disruptions caused by disasters as are 
broadband networks; cellular networks; and even public safety dispatch 
systems. This is because Amateur Radio does not rely on centralized or 
decentralized infrastructure. Because of Amateur Radio operators' 
technical self-training and flexibility, they can and do provide 
emergency communications with no infrastructure at all. Amateur Radio 
mobile and portable facilities can be established on site and at 
strategic locations off-site to provide reliable, immediate disaster 
relief communications instantly, within or outside the disaster area, 
over any path distance and to any location whatsoever. This flexibility 
makes it possible to provide communications for first responders and 
served agencies, as well as temporary interoperability facilities for 
first responders. As but a single example, in the aftermath of 
Hurricane Katrina, Amateur Radio operators provided communications from 
helicopters to first responders on the ground to facilitate rescue 
operations.
    Amateurs are best known for their immediate responses to 
hurricanes, tornadoes, earthquakes, snow and ice storms, floods and 
other natural disasters, and their preparedness for immediate, 
organized deployment in large numbers. They are immediately available 
in large numbers during and in the aftermath of such events, and they 
provide communications in support of public safety and disaster relief 
agencies and state emergency response agencies without any advance 
request to do so. The level of organization and preparedness comes from 
regular drills, exercises and emergency simulations and they are 
integrated into emergency planning at all levels of government. ARRL 
conducts emergency communications certification courses that provide 
the educational background necessary for such serious work.
    The large volume of public-spirited volunteer communicators in the 
Service stems from the fact that reliable, hardened Amateur Radio 
stations capable of local, regional or worldwide communications, with 
effective, outdoor antennas are widely and evenly distributed 
throughout the country, located in the residences of the licensees. 
There are, as the result, always going to be radio Amateurs inside and 
outside a disaster area, already on site before the disaster strikes, 
ready to transmit local conditions to first responders and state 
offices of emergency management. Because of this ubiquity, Amateur 
Radio serves as an early weather alerting service through programs 
designed to prepare the public for natural disasters and weather-
related emergencies.
Emergency Alerting Via Amateur Radio
    The Amateur Radio Service interfaces with the National Weather 
Service (NWS) and the National Hurricane Center (NHC). The SKYWARN 
program of the NWS provides thousands of volunteers nationwide to serve 
as the ``eyes'' of the NWS using Amateur Radio stations at their 
residences when severe weather is imminent. These spotters also provide 
critical meteorological data that cannot be observed at ground level by 
NWS radar systems. While there are some trained SKYWARN spotters who 
participate from their personal vehicles as mobile units positioned at 
certain strategic locations, the majority of SKYWARN participants 
provide their detailed observations from their home station locations. 
Effective and reliable stations and antennas are needed in order for 
these home stations to provide these detailed observations to NWS and 
NHC. The timeliness of SKYWARN reports submitted via Amateur Radio 
confirms what NWS sees on weather radars; it substantially increases 
the precision of severe weather forecasting; and it allows NWS to 
increase the warning and preparation times for those citizens in harm's 
way. The program works very well: according to statistics from the NWS, 
approximately 290,000 trained SKYWARN spotters--the majority being 
licensed Amateur Radio operators--assist the NWS in providing accurate, 
reliable and immediate information on approximately 10,000 severe 
thunderstorms, 5,000 floods and 1,000 tornadoes on average each year.
    The NHC, on the campus of Florida International University in 
Miami, is the second major National Weather Service program supported 
by Amateur Radio. For the past 32 years, volunteer operators at the 
NHC's dedicated Amateur Radio station (FCC callsign WX4NHC) have been 
present during any hurricane activation. Because reports arrive from 
the Atlantic and Pacific basins, High Frequency (HF) communication 
serves as a core component of this valuable NWS tool. The utility of HF 
communications in this life-saving effort requires that Amateur 
stations provide their information to the NHC via effective, reliable 
HF stations from the residences of licensees.
The Resiliency of Amateur Radio Disaster Relief Communications
    Radio Amateurs have proved over and over again that because of 
their training and their willingness to bring personal radio gear into 
disaster areas that they can quickly re-establish communications during 
that critical window of time between a disaster's occurrence and the 
re-establishment of normal communications. These are the times of great 
threat to life and property: the ``hottest'' phase of the disaster's 
aftermath. Radio Amateurs are also trained and prepared to provide 
supplementary communications after normal communications have been 
restored. We have always been interoperable. For us it is not a goal, 
it is a fact. Although we are not first responders, we have a long 
history of cooperating with first responders when needed to help them 
perform their essential tasks for the public.
    The absence of disaster-susceptible communications infrastructure 
inherent in Amateur Radio insures a unique level of resilience in times 
of disaster and afterward. This is not found in broadband networks, 
conventional or trunked public safety communications systems or 
cellular architecture. Surely enough, improvements in public safety 
systems and interoperability permit more reliable communications and a 
better level of organization among disparate public safety agencies and 
at different levels of government. That said, however, no one should 
believe that current generation public safety interoperable networks, 
be they broadband or narrowband, and regardless of the way these 
networks are designed, will be sufficiently durable in all disaster 
incidents. Because of their system architecture, all are subject to 
disruptions, overload, or failure under certain circumstances. It will 
continue to be necessary in the future for Amateur Radio operators to 
provide emergency alerting data, temporary communications and 
facilities for first responders and disaster recovery agencies at the 
outset of local and regional disasters and it will be necessary to 
provide temporary interoperability between and among first responders 
and disaster relief agencies. Former Federal Emergency Management 
Agency (FEMA) Director Craig Fugate, at an FCC earthquake forum 
concerning emergency communications planning several years ago, stated 
that:

        ``Finally, I have got to get back to Amateur Radio. . .They are 
        the first ones in the first days getting the word out as the 
        other systems come back up. I think that there is a tendency 
        (to believe) that we have done so much to build infrastructure 
        and resiliency in all of our other systems, we have tended to 
        dismiss that role -when everything else fails, Amateur Radio 
        often times is our last line of defense. And I think at times 
        we get so sophisticated, and we have gotten so used to the 
        reliability and resilience in our wireless and wired and our 
        broadcast industry, and in all our public safety 
        communications, that we can never fathom that they will fail. 
        They do. They have. They will. When you need Amateur Radio 
        (operators), you really need them.''

    Amateur Radio is available, ready, willing and able to do provide 
these services at no cost to anyone. As former FEMA Administrator 
Fugate noted, Amateur Radio operators are always there, using their own 
radios, on their own frequencies, and ``nobody pays them.'' Indeed, we 
will be there ``when all else fails.''
The Hawaii Missile Alert
    It is indeed an instructive time to discuss the value of Amateur 
radio in emergency alerting, emergency communications generally and 
disaster relief communications. Amateur Radio was involved in the 
effort to achieve normalcy in Hawaii after the recent ballistic missile 
alert. The Hawaii State Radio Amateur Civil Emergency Service (RACES) 
network was activated on UHF frequencies and also using a VHF inter-
island repeater network. Amateur stations monitored the alert/
cancellation activity. Only 20 hours earlier, the RACES network had 
completed an Amateur Radio communications exercise State Emergency 
Operations Center. The phone lines into the State EOC were soon 
overwhelmed and congested, and the website was overwhelmed with public 
inquiries. At these times, Amateur radio volunteers are normally 
present at either or both of the state or county EOC offices and at the 
State Warning Point, Hawaii Emergency Management Agency.
    The Hawaii false alert notice (i.e., the cancellation notice) was 
circulated on various information mechanisms after 13 minutes. That was 
picked up and relayed through the Amateur Radio networks. The cellphone 
alert system could not be used for the cancellation notice until prior 
FEMA approval was obtained. Once that was obtained, the cancellation 
alert went out to the cellphone network after 38 minutes from the 
initial alert. There were lessons learned by the Hawaii Amateur Radio 
community from this event. The emergency communications certification 
training that Amateurs in Hawaii are given urges use of the warning 
siren as an alerting mechanism to trigger for Amateur Radio emergency 
communications networks, but in this case the sirens were not 
activated, thus causing some confusion. Amateur Radio emergency 
communications certification classes specifically teach about warnings, 
the three kinds of siren warning sounding in Hawaii (including the 
attack or wailing sound) and about preparedness for all hazards. This 
incident has expanded discussions in Hawaii about the means by which 
Amateur Radio networks are activated.
    Hawaii Amateur Radio operators report that Amateur Radio played an 
important role in relaying the cancellation notice. For example, an 
early Coast Guard cancellation notice was relayed by an Amateur Radio 
operator to the Amateur Radio networks and disseminated very quickly. 
The State Warning Point waited to obtain FEMA authorization to send out 
a particular type of message that would show up on cellular phones 
similarly to the original alert message. Many people had received the 
warning first on their cell phones through the Wireless Emergency Alert 
(WEA) system, but a cancellation on that same system was substantially 
delayed; the result was that Amateur Radio networks disseminated 
validated cancellation information long before the cellular networks 
were able to do so.
    There is no single model for effective communications in advance 
of, during and after disasters and emergencies. Emergencies range from 
a localized situation affecting one community, or an insular area such 
as Puerto Rico or the Virgin Islands, to regional events affecting 
multiple counties or larger areas. Wide area disasters may affect 
multiple states or entire regions of the country (such as a hurricane 
which, in its course, can impact states from Florida up the entire 
Eastern portion of the United States to Maine, as occurred in Hurricane 
Sandy, and/or the entire Gulf coast and southern United States into 
Texas as occurred with Hurricanes Katrina and Rita). Because of the 
differences in propagation at various times of the day and the 
distances and paths that emergency communications may need to cover, 
the ability for Amateurs to utilize any and all of their authorized 
frequency allocations [from medium-frequency (MF) through ultra-high 
frequency (UHF) and above] efficiently is necessary in order for the 
Service to be fully effective in disasters and emergency relief. All of 
these allocations require the use of an effective outdoor antenna.
Hurricane Maria and Amateur Radio's Role in Recovery Operations in 
        Puerto Rico
    Because of the utter devastation that occurred in Puerto Rico from 
Hurricane Maria recently, the approximately 500 local Amateur Radio 
operators who are actively and regularly available there for emergency 
communications purposes were not all available to provide restorative 
and other emergency communications because many of the operators were 
concerned at the outset with basic survival for themselves and their 
families. ARRL estimates that there were approximately 75 Amateur Radio 
stations throughout the Island providing communications at all times 
during the entire process--from before the Hurricane hit until very 
late in the recovery effort. Indeed, even today, local Amateur Radio 
operators are providing communications for power utility workers doing 
power grid restoration. However, it was obvious at the outset that 
additional resources were going to be needed. ARRL called upon the 
mainland Amateur Radio community to provide up to 25 two-person teams 
of highly qualified licensees. Amateur Radio volunteers responded 
immediately, without hesitation. Fifty of the Nation's most 
accomplished Amateur Radio operators responded within 24 hours to the 
call to deploy to Puerto Rico and provide emergency communications for 
a three-week tour of duty, sponsored by the American National Red 
Cross.
    The group's principal mission was to move health-and-welfare 
information from the Island back to the U.S. mainland, where that data 
was used by the Red Cross. The group remained on the island for 3 
weeks. ARRL equipped each two-person team with a modern digital HF 
transceiver, special software, a wire antenna, a power supply and all 
the connecting cables, fitted in a rugged waterproof container. In 
addition, ARRL sent a number of small, 2,000-Watt portable generators 
as well as solar-powered battery chargers of the variety the U.S. 
military uses on extended deployments, and some VHF and UHF equipment 
for local use. ARRL's Ham Aid program adapted and provided nearly 
$75,000 in Amateur Radio equipment to the volunteers that deployed to 
Puerto Rico and to the ARRL members resident in Puerto Rico. Some of 
this equipment is still being used in Puerto Rico for the recovery 
effort. Because Hurricane Maria devastated the island's communications 
infrastructure, without electricity and telephone service, and with 
most of the cell sites inoperative, millions of Americans were cut off 
from communicating. Shelters were unable to reach local emergency 
services. Nor could people check on the welfare of their family 
members. The situation was dire and the Amateur Radio response was 
timely in order to address the crisis. Referred to as the ``Force of 
50,'' the Amateur Radio volunteers provided communications for local 
law enforcement and utility managers; island-to-mainland health-and-
welfare traffic, and outgoing communications from the more remote areas 
of Puerto Rico in the mountains to San Juan and other municipios. Fire 
officials in Puerto Rico facilitated safe passage, food, shelter, and 
water for the volunteers at fire stations on the island, as needed. The 
volunteers initially gathered at the convention center in San Juan, 
which served as the Puerto Rico Emergency Management Agency (PREMA) 
headquarters. The Force of 50 and local radio Amateurs staffed VHF and 
HF nets at the American Red Cross temporary headquarters, despite 
severe damage to their own homes. The nets covered nearly two-thirds of 
the island. In addition to the health and welfare traffic and Red Cross 
information transfer, the volunteers handled traffic to and from the 
power company, Autoridad de Energia Electrica (AEE), and state and 
local authorities relative to power restoration efforts. Twelve team 
members were assigned to provide communication for engineers tasked 
with repair to the island's power distribution centers.
    The Red Cross Headquarters net, staffed by radio Amateurs, provided 
24-hour operation in preparation for an anticipated emergency involving 
the Guajataca hydroelectric dam. Amateurs provided notices to residents 
in the districts of Quebradillas, Isabela, and San Sebastian of the 
danger. An Amateur volunteer was stationed in Quebradillas to provide 
emergency communication if needed and to maintain contact between AEE 
and its Monacillo control center. An Amateur Radio station was 
installed and an operator embedded at the Puerto Rico Emergency 
Operations Center (PREOC). Local radio Amateurs established VHF 
communication capabilities at 51 hospitals throughout the island, so 
they could have direct contact with the PREOC. The Amateur embedded at 
the PREOC served as liaison between the PREOC and the FEMA Emergency 
Support Function (ESF-2) task force, relaying information among the Red 
Cross, ARRL, FEMA, and the ESF-2 task force.
    Two team members deployed in the westernmost end of the Island. 
``Team Oeste (Mayaguez)'' were stationed at a Red Cross shelter in 
Mayaguez, providing the only emergency communication link from that 
city to San Juan initially. That team relayed needs and conditions of 
those living in and around Mayaguez and coordinated water delivery and 
other urgent necessities, such as non-perishable food items, extended-
life dry milk, blankets, baby formula, and dust masks. They provided 
communications for the medical staff set up at the Palacio de 
Recreacion y Deportes, a sports facility in Mayaguez converted to a 
medical facility. Lists of medical needs were relayed to the Red Cross 
as well as to FEMA and Puerto Rico's Emergency Management Agency. An HF 
station with data transfer capability and a VHF/UHF station were set up 
in the FEMA disaster field office, and volunteers reported in by radio 
from around the island to post situation reports. Amateur operators 
were also posted at four power-generation facilities, at the request of 
the power company. Superacueducto, the water utility, asked for several 
Amateur Radio Operators to help in re-establishing water flow from 
Arecibo to San Juan. Four Amateur Radio volunteers were positioned to 
accompany and provide VHF communication at Red Cross distribution 
centers on a daily basis. Two volunteers also were sent to Culebra 
Island to establish VHF and HF communication there. Those volunteers 
provided the first communications from Culebra following the storm.
    Critical to the value of the Amateur Radio response to Hurricane 
Maria were the partnerships that had been established long before the 
event. ARRL has national partnerships with, inter alia, the American 
Red Cross, the Federal Emergency Management Agency, and The Salvation 
Army. ARRL worked closely with the Red Cross in Puerto Rico and, due to 
the work of local volunteers associated with ARRL in Puerto Rico, a 
network of relationships across the island has been in place for many 
years. Amateur Radio emergency and disaster preparedness through 
building partnerships allows our volunteers to be integrated into 
response in an effective way on exceptionally short notice. The radio 
Amateurs in Puerto Rico are extremely well-organized, and, given the 
severity of the damage and personal deprivations suffered by everyone, 
including the vast majority of local Amateur Radio licensees, they 
responded in large, and sufficient, numbers. They are deserving of a 
great deal of credit for their performance in the face of tremendous 
personal loss and sacrifice.
    ARRL worked with partners such as U.S. Army Military Affiliate 
Radio Service members, the National Hurricane Center, and the Salvation 
Army Team Emergency Radio Network (SATERN) so the broader Amateur Radio 
response was coordinated and made effective use of each group's 
strengths and assets.
    There were several lessons learned from this extensive test of 
Amateur Radio's emergency capabilities. Throughout Puerto Rico, normal 
communications were disrupted, isolating communities and hampering 
emergency response. Amateur Radio operators extensively utilized 
conventional, analog VHF systems and HF radio e-mail systems to 
successfully pass lifesaving messages between government and non-
government entities. Through our volunteers deployed from the mainland 
to Puerto Rico and the resident ARRL Puerto Rico Section, radio 
Amateurs effectively integrated into the FEMA Joint Field Office (JFO) 
in ESF-2 (Communications). This allowed for an effective flow of 
information between Amateur Radio volunteers throughout the island and 
Federal responders responsible for communications restoration. The 
Department of Homeland Security SHARES program also played a key role 
in providing Amateur Radio support to JFO ESF-2 when the volunteers 
there were at the end of their tour. Finally, radio Amateurs provided 
support to military responders when clear channel HF communications 
were needed for military missions. Among other things, Amateur Radio 
operators provided HF communications for the military when helicopters 
were out of line-of-sight range and needed to communicate with base 
stations obscured by the extremely mountainous terrain in Puerto Rico.
Effective Outdoor Antennas are Critical to the Amateur Radio Response 
        in Disasters
    The expertise radio amateurs have with HF communications is 
tremendously valuable when frequency selection, interference and 
propagation hinder response and where, as in Hurricane Maria, there is 
a large volume of message traffic between the U.S. Mainland and 
geographically separated Caribbean islands. In this case perhaps the 
most urgent lesson learned is that the value of an active and engaged 
group of local Amateur Radio operators with pre-existing effective 
outdoor antennas cannot be overstated. Local radio amateurs understand 
their communities, the threats faced, and the response culture better 
than do volunteers from the outside. The ``Force of 50'' would not have 
been successful but for the exceptional spirit of volunteerism by 
Puerto Rico radio Amateurs and their relatively unfettered ability to 
erect effective outdoor antennas, and the fact that those local Amateur 
stations were in place and ready to provide communications long before 
the 2017 hurricane season. It was local radio Amateurs, using stations 
at their residences and portable stations who initiated restorative 
communications operations before the Force of 50 arrived, and they 
continued those efforts many weeks after the Hurricane.
    Amateur Radio operators need very little from the Federal 
Government. We do what we do because we love the medium and we are 
public spirited volunteers who derive personal satisfaction from using 
our avocation for the benefit of people in need of help. We do, 
however, have a very urgent need that will cost no one anything, nor 
create any controversy whatsoever. The Amateur Service, in order to 
ensure the continuation of emergency communications readiness, 
absolutely requires some relief from the ubiquitous presence of, and 
the exponential increase in unreasonable and unnecessary private land 
use regulations in the United States that, essentially universally 
preclude the ability of licensed radio amateurs to erect and maintain 
any effective outdoor antenna at all. This is without any doubt the 
largest threat to the Amateur Radio community's ability to respond to 
disasters, severe weather, and other threats to lives and property in 
the United States.
    Perhaps the most important element of the ability of local radio 
Amateurs throughout Puerto Rico to be immediately ready to provide the 
restorative communications that they did provide very effectively is 
that they had the ability, long before the Hurricane arrived, to 
install and maintain effective outdoor antennas for the HF and VHF and 
UHF bands at their residences. There is not yet in Puerto Rico the 
prevalence of preclusive private land use regulations that now exists 
in the rest of the United States, but the situation is dire in most 
other suburban, urban and exurban areas. It is important in analyzing 
this issue to view the Amateur Service as a decentralized network of 
individual stations working together in emergency situations and in 
preparing for the same. The essentially uniform distribution of Amateur 
Radio stations in residential areas makes those individual stations 
very important in a given weather disaster in the area where those 
stations are located when commercial communications systems are 
disabled or overloaded, or in other areas for purposes of relay of 
message traffic. Amateur stations are often called on to report severe 
weather, and the geographic distribution of stations in residential 
areas is critical for this function as well. Furthermore, while modern 
Amateur stations are portable, and transportable to remote disaster 
locations, it is critical to have stations located at one's residence 
in order to regularly participate in disaster preparedness training 
exercises and drills. It is impossible to prepare adequately for the 
use of Amateur Radio communications in emergencies when the ability to 
self-train and self-educate by means of an effective, reliable Amateur 
Radio station at one's residence is precluded by the inability to 
install a functional outdoor antenna.
Private Land Use Regulations Increasingly Preclude Amateur Radio 
        Disaster Response
    There is no substitute for the ready availability of a residential 
Amateur Radio station in daily operation from a licensee's residence. 
The licensee cannot be expected to have the ability to communicate into 
or from a disaster site unless he or she has a station with an 
effective outdoor antenna capable of operation on multiple frequency 
bands at once, which is ready to be pressed into service from the 
licensee's residence at a moment's notice. The major value of Amateur 
Radio emergency communications is during the first hours, days or weeks 
of a disaster when commercial and public safety communications 
facilities are not functional or are overloaded. Stations must be ready 
to operate when needed and emergency communications are most often 
conducted from a licensee's residence. For some disabled persons, home 
stations represent their only opportunity to participate in emergency 
communications. Private land use regulations which exclude Amateur 
Radio stations from entire communities preclude emergency 
communications readiness.
    According to the Community Associations Institute, 90 percent of 
new housing starts in the United States are subject to private land use 
regulations. This is because, now, essentially all lenders for land 
developers in the United States require, as a condition for funding a 
new housing development, all require a declaration of covenants be 
filed with the subdivision plat. Given the prevalence and increasing 
numbers of private land use regulated communities in the United States, 
residential Amateur Radio antennas cannot be installed or maintained in 
most of them. An Amateur Radio licensee who must live in a deed 
restricted community currently will almost inevitably be subject to 
either (1) a complete prohibition of his or her Amateur Radio 
operation, or (2) the unlimited jurisdiction of a community association 
or architectural control committee or board which makes decisions 
concerning Amateur Radio antennas without any standards or limits 
whatsoever. Those private land use regulations (or the application of 
them) which prohibit outdoor Amateur Radio antennas or transmissions, 
and thus preclude Amateur Radio entirely; those which fail to permit 
the installation of effective outdoor Amateur Radio antennas; and those 
which do not constitute the minimum practicable regulation to 
accomplish the (aesthetic) goals of a homeowner's association are 
unreasonable and unnecessary.
The Amateur Radio Parity Act of 2017
    There is now pending before this Committee the Amateur Radio Parity 
Act of 2017. The House version of this Bill, H.R. 555 passed the House 
unanimously in January of 2017. An identical predecessor House Bill, 
H.R. 1301 passed the House unanimously in the 114th Congress. The 
current Senate Bill, S. 1534 was introduced in July of 2017 by Senators 
Wicker and Blumenthal. This is a balanced, completely bipartisan bill 
that would fully protect both the entitlement of Amateur Radio 
volunteers to be able to utilize their FCC-issued licenses to provide 
emergency, disaster relief and public service communications, while at 
the same time protecting the aesthetic concerns and the jurisdiction of 
homeowners' associations. The Bill is unopposed: it has the support--in 
writing--of both ARRL and the Community Associations Institute (CAI) 
which is the only national association of homeowners' associations. 
ARRL and CAI, at the urging of members of this Committee, cooperatively 
and carefully negotiated the precise, current language of the Bill, and 
both organizations have stated their support for the present version.
    The Bill calls on the Commission to enact rules that prohibit the 
application to Amateur Radio stations of deed restrictions which 
preclude Amateur Radio communications. Also prohibited are those deed 
restrictions which do not permit an Amateur Radio operator living in a 
deed-restricted community to install and maintain an effective outdoor 
antenna on property under the exclusive use or control of the licensee; 
and those restrictions which do not impose the minimum practicable 
restriction on Amateur communications to accomplish the lawful purposes 
of a Homeowner's Association (HOA) seeking to enforce the restriction. 
Amateurs who wish to install an antenna in a deed restricted community 
may be required to notify and obtain prior approval of the HOA. HOAs 
can preclude Amateur antennas in common areas (i.e., property not under 
the exclusive use of the licensee). HOAs can enact reasonable written 
rules governing height, location, size and aesthetic impact of, and 
installation requirements for, outdoor antennas and support structures 
for amateur communications but the effective outdoor antenna 
requirement is paramount. We are in desperate need of this legislation, 
and without it, the volunteer emergency communications services 
provided by Amateur Radio will be precluded. We urge the Committee in 
the strongest terms to please approve and send this legislation forward 
without delay.
    ARRL is grateful for the opportunity to submit this testimony and 
to make our concerns known to the Committee. We look forward to the 
opportunity to bring to your attention the good work of a large number 
of volunteers who look forward to every chance to serve their country 
whenever and wherever they are needed.

    The Chairman. Thank you, Mr. Lisenco.
    Mr. Matheny.

 STATEMENT OF SAM MATHENY, CHIEF TECHNOLOGY OFFICER, NATIONAL 
                  ASSOCIATION OF BROADCASTERS

    Mr. Matheny. Good morning, Chairman Thune, Ranking Members 
Nelson and Schatz, and members of the Committee. My name is Sam 
Matheny, and I am the Chief Technology Officer at the National 
Association of Broadcasters.
    On behalf of the thousands of free local television and 
radio broadcasters in your hometowns, thank you for inviting me 
to testify on the Emergency Alert System and how broadcasters 
fulfill their roles as first informers and how innovation will 
allow broadcasters to do even more to keep viewers and 
listeners safe during emergencies.
    Broadcasters take seriously their role as the most trusted 
source of news and emergency updates. Whether it's preparing 
listeners and viewers for the coming storm, directing them to 
needed supplies and shelter during the disaster, or helping 
rebuild in the aftermath, local stations are part of the 
communities they serve, and broadcasting is sometimes the only 
available communications medium in an emergency when wireless 
networks fail. Morning Consult recently found that the American 
people turn to broadcasters in times of emergency by a factor 
of more than three to one.
    Broadcasting is unique for the following reasons. First, 
broadcasting covers virtually everyone. Broadcast signals reach 
more of the U.S. population than any other communications 
medium. Broadcasting is localized. Local broadcast stations can 
deliver market-specific information as well as national alerts. 
Broadcasting has no bottlenecks. An emergency alert can reach 
millions of people simultaneously without concern over network 
congestion.
    Broadcasting is redundant. There are numerous independently 
operated stations in each market that deliver alerts. 
Broadcasting is resilient. Stations often operate with backup 
equipment, generators, and fuel supplies to keep stations on 
the air.
    Broadcaster information is actionable. Radio and television 
can provide enough information to enable people to understand 
what is happening and what steps they should take. And, 
finally, broadcasters are trusted. They are members of the 
local community and speak not just as an authority, but as a 
neighbor.
    But broadcasters do more than just deliver messages to the 
public. Broadcasters are also the backbone of the Emergency 
Alert System. Working with the government since the 1950s, 
broadcasters have operated and evolved a nationwide wireless 
network to deliver emergency alerts. This daisy chain of 
broadcast stations ensures that emergency alerts can be 
delivered independent of internet connectivity and even when 
power outages disrupt other forms of communication. In fact, 
broadcasters serve as primary entry points for emergency 
communications to the public and are thus part of the solution 
from beginning to end.
    Because broadcasting plays such an important role in this 
critical communications infrastructure, it is vital that the 
government support and foster broadcasting. I'd like to briefly 
outline three key areas for your consideration.
    First, the Next Generation Television Standard, ATSC 3.0, 
which was recently approved by the FCC, has many features that 
will improve emergency alerting, including the ability to wake 
up sleeping devices, more precise geo-targeted alerts, and 
sending rich multimedia files such as weather radar images, 
evaluation maps, and even video files with detailed 
explanations about the emergency and what to do. New regulatory 
hurdles should not be placed in our way as we deploy Next Gen 
TV.
    Second, broadcasters are in the final and most complicated 
phase of the incentive auction, the repack phase. Nearly 1,000 
television stations will be moving to new channel assignments, 
and this will also impact over 700 FM radio stations on co-
located towers. Broadcasters need the time and money required 
to make these moves successfully and without impairing the 
public's ability to access emergency alerts. I ask for your 
support of the Viewer and Listener Protection Act, sponsored by 
Senators Moran, Schatz, and eight of their colleagues, and urge 
its passage, as no station should be forced off the air due to 
a lack of funds or unreasonable time constraints.
    And, third, broadcasters have been working with the 
wireless phone manufacturers and service providers on market-
based solutions to activate FM chips in smartphones. Our market 
efforts have been successful with one very notable exception--
Apple. We believe Apple should be encouraged to activate FM, 
the FM tuner, in future models of their iPhone as it will 
improve people's access to vital information in times of 
disaster.
    In conclusion, in emergencies large and small, our nation 
and your hometowns benefit from a strong and vibrant broadcast 
industry. FEMA calls broadcasting a redundant, resilient, and 
necessary alerting pathway. I agree.
    Thank you for having me here today. I look forward to 
answering any questions.
    [The prepared statement of Mr. Matheny follows:]

     Prepared Statement of Sam Matheny, Chief Technology Officer, 
                  National Association of Broadcasters
Introduction
    Good morning, Chairman Thune, Ranking Member Nelson and members of 
the Committee. My name is Sam Matheny and I am the chief technology 
officer at the National Association of Broadcasters (NAB). On behalf of 
the thousands of free, local television and radio broadcasters in your 
hometowns, thank you for inviting me to testify on the Emergency Alert 
System (EAS), how broadcasters fulfill their role as first informers 
and how innovation will allow broadcasters to do even more to keep 
viewers and listeners safe during emergencies. In addition to my role 
at NAB, I bring another perspective to these issues having spent nearly 
20 years with Capitol Broadcasting Company, parent to WRAL-TV in 
Raleigh, North Carolina. There I worked directly with state emergency 
officials to help develop demonstrations of mobile alerts and warnings. 
Additionally, I have experience serving on committees that advise the 
Federal Communications Commission (FCC) and Federal Emergency 
Management Agency (FEMA) on a wide variety of network security, 
reliability and public safety issues, and specifically on how to 
improve our Nation's Integrated Public Alert and Warning System 
(IPAWS).
Broadcasters' Unique Role and Experience in Emergency Alerting
    As the most trusted source of news and emergency updates, 
Americans' first choice is to turn to local television and radio 
stations to get the information they need to keep safe during 
emergencies. Local stations are part of the communities they serve, and 
broadcasters do not hesitate to put themselves in harm's way to bring 
critical information to their neighbors. Whether it is preparing 
listeners and viewers for the coming storm, helping them access needed 
supplies and shelter during the disaster or helping towns and cities 
rebuild in the aftermath, local broadcasters take seriously their 
commitment to protect the public.
    Recent fires and mudslides on the West Coast and hurricanes in 
Texas, Florida and Puerto Rico have once again shined a bright light on 
our Nation's emergency preparedness and response abilities. While this 
is obviously true for first responders and all levels of government, it 
is also true for broadcasters. FCC Chairman Ajit Pai reminded us just 
last week that in times of crisis first responders and first informers 
work hand in hand, noting that ``[b]roadcasting and public safety have 
been lifelong companions.'' While this sort of cooperation received 
national attention during the recent hurricanes and wildfires, it was 
just as true two years ago when over 60 tornados ravaged parts of 11 
states across the southeast and just a few months later when quick and 
devastating floods overtook large parts of West Virginia and Virginia 
in what the National Weather Service (NWS) referred to as a One 
Thousand Year Event. In each of these cases and in countless others, 
broadcasters were there, serving their listeners, viewers and 
communities.
    Broadcasters invest heavily to ensure they remain on the air in 
times of disaster. Facilities often have redundant power sources, 
automatic fail-over processes, auxiliary transmission systems, 
generator back-up and substantial fuel reserves. Because of the 
strength of the broadcast infrastructure and the power of the airwaves, 
local radio and TV stations are often the only available communications 
medium during disasters, even when cell phone and wireless networks can 
be unreliable. FEMA officials have noted that in times of emergency 
there is no more reliable source of information than local 
broadcasters. To give just one example, last year after Hurricane Maria 
moved through Puerto Rico and left much of the island without power and 
access to even basic information, not only were local television and 
radio stations continuing to provide lifesaving alerts and information 
all throughout the ordeal, but afterward NAB partnered with numerous 
state broadcaster associations, FEMA and local officials in Puerto Rico 
to deliver 10,000 battery-powered radios to island residents who had no 
other lifeline.
    This unique combination of trust and reliability is why, in 
addition to our ongoing, comprehensive news coverage of emergencies, 
broadcasters form the backbone of the Emergency Alert System. We have 
all seen or heard the familiar announcement ``The following is a test 
of the Emergency Alert System. This is only a test.'' EAS connects 
over-the-air broadcast radio, television and cable systems, and is used 
during sudden, unpredictable or unforeseen events. EAS participation is 
technically voluntary, yet virtually all radio and television stations 
participate, and do so proudly, even purchasing EAS equipment at their 
own expense. Today, the EAS, along with Wireless Emergency Alerts 
(WEAs) and National Oceanic and Atmospheric Administration (NOAA) 
Weather Radio, is part of the IPAWS umbrella, enabling state and local 
emergency managers to integrate with the national alert and warning 
infrastructure.
Lessons Learned from Nationwide EAS Test and Recent Events
    In September 2017, FEMA, in coordination with the FCC and the NWS, 
conducted a nationwide test of the reliability and effectiveness of the 
EAS. Generally, the results of the test were positive, as a majority of 
EAS participants received and retransmitted the message, and 
participation improved compared to a previous test in 2016.
    However, as the residents of and visitors to Hawaii know all too 
well after this month's false alert of a nuclear attack, our Nation's 
public alert and warning system and the emergency managers that 
originate messages are not always perfect. In an instant, one emergency 
manager's accidental mouse click triggered a local and national panic, 
compounded by a lack of information and delay in disseminating correct 
information via official channels. Several items arising out of this 
unfortunate incident are worth discussing.
    First, the most important takeaway is that the EAS system worked; 
radio and television broadcasters were on the case. The mistaken EAS 
alert was immediately relayed by broadcasters, who verified the source 
of the message but must rely on emergency managers for validation of 
the emergency. Broadcasters also stood by to disseminate the All Clear 
message. Unfortunately, it took emergency managers 38 minutes to issue 
the needed follow-up EAS message. In the meantime, broadcasters used 
other means to confirm and report that it was a false alarm as soon as 
possible. The EAS system is a critical part of the trust that people 
place in broadcasters during an emergency, but human error in the 
issuance of EAS alerts can impair that trust. Going forward, NAB hopes 
to work with all the relevant stakeholders to minimize, if not 
eliminate, any vulnerabilities in the EAS process that may hinder 
broadcasters from carrying out their duty as first informers.
    Second, broadcasters support the continued implementation by FEMA 
of the IPAWS Modernization Act, legislation authored by Senators Ron 
Johnson (WI) and Claire McCaskill (MO) and passed by Congress in 2016. 
This legislation recognized that the continued success of EAS will 
depend on the expertise and ability of local authorities to fully and 
effectively deploy it. Broadcasters applaud FEMA's ongoing efforts to 
train state and local authorities on the proper use of the system, and 
support this legislative effort to incentivize state and local 
officials to participate in training. Especially after Hawaii, it is 
more important than ever that local emergency managers know exactly how 
and when to trigger an EAS alert.
    Third, this Committee and the FCC should consider whether current 
WEAs provided by the wireless industry are sufficient to adequately 
alert and warn recipients in times of emergency. Twenty years after the 
pager was supplanted by the brick phone, then the flip phone and now 
the smartphone, a WEA delivers text only emergency information to 
recipients, often with fewer characters than a tweet. Often, these 
alerts simply direct recipients to ``check local media.'' A multi-
stakeholder FCC advisory committee that I served on recommended that 
WEA be improved by increasing the number of characters from 90 to 360 
so the alerts would be more informative and useful. Further, this 
committee also recommended that WEA include embedded links and phone 
numbers so recipients could quickly gain access to additional 
information. These suggested enhancements were opposed by the wireless 
industry before the FCC, but were ultimately authorized in September of 
2016 and are awaiting implementation. In contrast, I will detail below 
several ways in which radio and television broadcasters are innovating 
to better inform their communities when it matters most.
Policy Choices Critical to Broadcasters' Current and Future 
        Capabilities
    It is important that Congress be mindful of several policy choices 
that will enable broadcasters to continue and improve upon this 
important emergency role.
A. Next Generation TV
    Broadcasters are pleased that the FCC recently approved a joint 
petition of the NAB, Consumer Technology Association, America's Public 
Television Stations and the Advanced Warning and Response Network 
Alliance, requesting permission for stations and television receiver 
manufacturers to voluntarily adopt the world's first Internet Protocol 
(IP)-based terrestrial television transmission standard, ATSC 3.0, also 
known as Next Gen TV. Not only will Next Gen TV allow broadcasters to 
deliver sharp ultra HD images, multichannel immersive sound, 
interactive features and customizable content, but more importantly it 
will enable an even more effective distribution of information to the 
public during disasters and in times of crisis.
    With the advanced alerting capabilities of Next Gen TV, a 
television broadcaster will be able to simultaneously deliver geo-
targeted, rich media alerts to an unlimited number of enabled fixed, 
mobile and handheld devices across their entire coverage area. For 
example, and at the consumer's discretion, rather than simply running 
an EAS alert or crawl over regularly scheduled broadcast programming 
for an entire market's viewing audience (and then only reaching those 
who are watching), a Next Gen TV signal could wake up enabled devices 
and reach the entire universe of devices within its television signal 
contour. Using the rich-media capabilities of Next Gen TV, broadcasters 
can provide targeted neighborhood-specific alerts that include text, 
graphics (such as Doppler radar animations or an evacuation route), 
pictures and even detailed video-on-demand descriptions. The public 
will have access to all of this actionable, life-saving information 
even if the power goes out or cellular wireless networks fail.
    As broadcasters, we are simply planning to use our spectrum 
licenses more efficiently and to better serve our viewers. We are not 
asking for any additional spectrum, government funds or mandates. 
Unlike other communications providers, broadcasters are the only 
licensees that must ask the FCC for permission to innovate with regard 
to our transmission standard. However, by adopting Next Gen TV, 
broadcasters will have much greater flexibility to innovate going 
forward. As long as new regulatory hurdles are not placed in our way, 
more and more viewers across the country will benefit from these 
innovations and the advanced emergency alerting systems that Next Gen 
TV will enable.
B. Spectrum Incentive Auction Repack
    While broadcasters are innovating for the future, there are also 
near-term obstacles that without action could prevent emergency alerts 
from reaching local broadcast viewers and listeners. I'm referring to 
relocating--or repacking--nearly 1,000 broadcast television stations in 
the final and most complicated phase of the broadcast spectrum 
incentive auction. Additionally, in the process of full-power 
television stations moving frequencies, this will also negatively 
impact more than seven hundred FM radio stations and countless low-
power television and translator stations that are critical to bringing 
service to rural America. Quite simply, if a television or radio 
station is forced off the air for any period of time due to 
circumstances outside of their control, it will diminish the ability of 
the public to receive critical EAS information.
    FCC Chairman Pai testified before this Committee in July that the 
funds Congress set aside to reimburse broadcasters for relocating are 
woefully inadequate. Not only does this funding shortfall violate 
Congress' promise to hold broadcasters harmless but, in some cases, the 
shortfall is actually preventing stations from making the advanced 
purchases required to complete their moves in a timely fashion. In 
fact, according to the most recent quarterly status reports filed with 
the FCC, 11 percent of stations changing channels are already behind, 
despite their best efforts to complete their moves. Accordingly, NAB 
salutes Senators Jerry Moran (KS) and Brian Schatz (HI) for their 
bipartisan legislation, the Viewer and Listener Protection Act (S. 
1632), and urge its passage to ensure that your constituents do not 
lose access to local television and radio stations during these 
mandated frequency moves due to a lack of funds or unreasonable time 
constraints.
C. FM Chip Activation
    The radio broadcast industry has continued to take a leading role 
in ensuring that a life-saving technology is available to millions of 
Americans through their smartphones. Over the past several years, 
broadcasters developed marketplace partnerships with wireless phone 
manufacturers and providers to turn on--or at least not deactivate--FM 
receivers that are already installed in devices. This endeavor has 
grown exponentially over the past few years and, with one notable 
exception--Apple's iPhone, many Americans are able to access FM radio 
through their smartphones during times of emergency, even when the 
cellular network may be down due to congestion or physical damage.
Conclusion
    In conclusion, I would like to thank you again for having me here 
today to speak about the critical role that broadcasters play in the 
Emergency Alert System and ensuring the public's safety. This is a 
mission our industry takes very seriously and we have a track record of 
fulfilling. We look forward to working with Congress, state and local 
governments and other industry partners to strengthen the entire system 
going forward. I look forward to answering any questions you may have.

    The Chairman. Thank you, Mr. Matheny.
    I appreciate all of you talking about the important roles 
that each of the organizations you're here on behalf of play in 
this overall process.
    I'd like to start with Ms. Fowlkes and ask you if you could 
describe or explain to us the role the FCC plays in the 
Emergency Alert System and how that interacts with the larger--
what they refer to as the IPAWS Communication System. How does 
the FCC--that's sort of where this committee's jurisdiction and 
interest is. How do they relate in this whole sequence of 
events?
    Ms. Fowlkes. The FCC is responsible for the distribution 
part of the EAS and WEA. In other words, we adopt and 
administer rules that apply to the communication service 
providers that participate in those two systems. For example, 
with respect to WEA, we have rules that would apply to the 
participating wireless carriers in terms of how their 
infrastructure is to react when it receives the alert, and, 
certainly, issues like geo-targeting are the types of things 
that we would govern. With respect to the EAS, how their--what 
capabilities their EAS equipment must have in order to receive 
and transmit an EAS alert.
    We do not have authority over the alert origination piece, 
which is the part of the system where government agencies 
decide whether to issue an alert, what the alert is going to--
what information the alert is going to include, the target 
area. That's not within our purview. FEMA oversees the 
Integrated Public Alert and Warning System. So, basically, you 
can kind of think of it as three pieces, the alert origination 
piece; the IPAWS piece, which is FEMA; the distribution by the 
communication service provider--they are participating under 
rules that are adopted and administered by the FCC.
    The Chairman. Do you see any need to change the rules based 
on this incident?
    Ms. Fowlkes. That's something that I really can't answer. 
The FCC doesn't have a position on that. I think in terms of 
that, it wouldn't be so much changing a rule. It would be 
something that would have to change in terms of our authority. 
Certainly, if Congress decided it wanted to make changes, we 
would stand ready to provide technical assistance with any 
draft legislation, and, obviously, if Congress enacted some 
legislation, we'd obviously implement it.
    The Chairman. Well, has the FCC, to that point, ever 
exerted jurisdiction over alerting authorities to require that 
there are best practices used and to make sure that there are 
adequate safeguards in place to prevent false alerts?
    Ms. Fowlkes. No.
    The Chairman. Do you believe the Commission has the 
authority or tools that it needs to ensure that an incident 
like the one that happened in Hawaii never happens again, 
currently?
    Ms. Fowlkes. Given the fact that the problem was on the 
alert origination piece, the FCC does not have authority in 
that area.
    The Chairman. Right. OK. So just to ask, I guess, the 
obvious question, at least the one intuitively that I thought 
of when I heard about all this, and that is after you describe 
this as a three-part process, and the FCC is on the 
distribution part of it, the origination alert, and then the 
FEMA clearinghouse function. It seems to me--why, then, did--
this is a ballistic missile threat. I mean, this is a DoD--this 
is like a nuclear war type thing. Why was a state agency 
involved in that alert?
    I understand--you know, we have a lot of experience in my 
part of the country with weather. The National Weather Service 
works closely with FEMA, and all those alerts go out if there's 
a potential tornado threat. But it seems to me, at least in 
this case--I'm still at a loss as to how--origination of the 
alert, and then sort of a clearinghouse--how that got so messed 
up. Does anybody want to take a stab at that?
    Ms. Fowlkes. Well, from the FCC's perspective, we really 
can't give an opinion on that. We are not involved in any way 
in deciding who issues what alert. That is a decision that's 
purely on the alert origination side. In terms of this specific 
incident, I would have to refer you to FEMA and DHS.
    The Chairman. Mr. Bergmann, could you just briefly talk 
about the wireless industry's role in that Emergency Alert 
System? I know you talked about it generally in terms of the 
role that you all play but, particularly, in light of this 
recent discussion and whether it has been a success, in your 
view?
    Mr. Bergmann. Thank you, Chairman Thune. I think time and 
again we've seen over the last 5 years that Wireless Emergency 
Alerts are a lifesaver. They've helped return kids who have 
been abducted, they've helped folks avoid tornados that are 
rolling through their town, and now we're starting to see them 
used for Blue Alerts to help identify and locate suspects, and 
there are a couple of key reasons why.
    Geo-targeting--Wireless Emergency Alerts are the only tool 
in our toolbox right now that helps find you where you are and 
get that message to you right then. Now, as we continue to 
improve Wireless Emergency Alerts, we've given the ability to 
access URLs and embedded links and content so that you can get 
that information and act on it, and that's a powerful 
combination.
    The Chairman. OK.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Ms. Fowlkes, thank you for everything that you and the FCC 
have been doing. I have a number of questions. I'm going to 
give them to you all at once, and you can either take them for 
the record, to the extent that you're still undergoing the 
investigation in Hawaii, but whatever you can answer would be 
great.
    The first question is, you know, who gets an alert and who 
doesn't? And in that category, you have the people who turn off 
the push notifications. So my first question--and, again, I'm 
going to try to run through them in the interest of time--is if 
on television, a broadcast TV or cable TV watcher doesn't have 
the opportunity in settings to turn off those alerts, we 
presume that everyone must know over the airwaves. Why do we 
allow people to turn off alerts of that magnitude? Maybe a Blue 
Alert or an Amber Alert is another matter. But in terms of a 
missile--an incoming ballistic missile--it seems to me that we 
should have a system that doesn't give anybody discretion about 
whether or not they get told that an alert is coming. That's 
number one.
    Number two is that my understanding is that although this 
is a voluntary system with the providers, the push alerts, that 
is, we still have about 99 percent coverage. I just want to 
confirm that's true.
    And, then, number three is we now have a bunch of people 
who are watching TV in different ways, and we still depend 
heavily, as we should, on our broadcast partners in TV, and 
let's not forget the importance of radio, especially in rural 
America. But we also have cord cutters who are on YouTube or 
Hulu or whatever it may be on their iPad, and no alert comes 
over that system. So I'm wondering whether the FCC has done any 
thinking about how to make sure that people who are watching 
television in a nontraditional way get those alerts?
    Ms. Fowlkes. On the first question, I believe you're 
referring to the opt-out option. Under the WARN Act, people can 
opt out of all but an alert that is issued by the President. So 
the ability to--and I should point out with WEA, unlike some 
other types of subscription-based alerting system, it's an opt-
out function versus an opt-in. But with the exception of 
anything that's coming from the President, the statute allows 
wireless carriers to offer the option to opt out.
    Senator Schatz. Right. And one of the questions we have 
into the National Security Council is why is this not--just 
very clearly, either by executive order or executive memorandum 
or by practice, why is an incoming missile not absolutely the 
kind of thing that would be--that would ride on that President 
alert? Because although in the drafting of the WARN Act, I'm 
not sure that that, specifically, was contemplated. This seems 
to me to be the highest priority alert and, therefore, perfect 
for a Presidential alert.
    Ms. Fowlkes. That's a question that the FCC, again, would 
not be able to answer.
    Senator Schatz. Sure. Not your lane. I got it.
    Ms. Fowlkes. In terms of----
    Senator Schatz. Carriers.
    Ms. Fowlkes.--the second question, which I believe was 
about whether it's voluntary----
    Senator Schatz. No. The second question was carriers, and I 
believe we have about 99 percent coverage, even though it's a 
voluntary program. Then the last question is how do we reach 
cord cutters? How do we reach people who are watching TV in 
nontraditional ways, not cable, not broadcast?
    Ms. Fowlkes. That's a very good question, and that's 
something that the FCC, you know, can--that's something that we 
can certainly look at within our authority.
    Senator Schatz. That's what I was going to ask. Could you 
get back to us about whether you need additional authorities to 
try to move that along, or whether you have existing--and if 
you do have existing authority, I'd like to know what you're 
going to do to kind of solve that problem? And if you don't, 
then I think that it's incumbent on the Commerce Committee and 
the Congress to try to fix that.
    And then just a quick clarification--did the Hawaii 
Emergency Management Agency need FEMA to sign off on a 
correction to the first push notification?
    Ms. Fowlkes. No.
    Senator Schatz. There were some----
    Ms. Fowlkes. They did not need permission from either FEMA 
or the FCC.
    Senator Schatz. OK. And then my final question for Ms. 
Fowlkes is, you know, one of the challenges with our broadcast 
partners--KSSK is the radio station that is responsible for 
getting out emergency information. They couldn't get on the 
phone with the Hawaii Emergency Management Agency. They 
couldn't get on the phone with PACOM. The Governor was having 
difficulty getting through to DoD. I was having difficulty 
getting through to the Governor.
    What do we do about the phone line problem when everybody 
is panicking and trying to communicate with each other--text 
messages, you know, spotty--and we need to have phone 
conversations? It seems to me that the FCC, at least in their 
investigatory process, has to assess the extent to which we had 
problems, not just in terms of the systems for communicating 
with each other, in terms of who calls whom, but also that, 
literally, people who really needed some sort of red phone to 
be able to talk to each other were not in a position to do so 
at the technical level.
    Ms. Fowlkes. That's something that we can take back and 
look at as part of the investigation.
    Senator Schatz. Thank you.
    The Chairman. Thank you, Senator Schatz.
    Next up is Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I want to thank Senator Schatz for his leadership. I can't 
imagine what that must have been like in your state. Of course, 
many Minnesotans like to go to Hawaii--I wonder why--and I 
had--my State Director was actually there when this happened 
and told the story of how he was in a hotel condo with no 
basement and didn't know what to do. They're taking things, 
like anything they can find, for an emergency packet. And when 
you think about that story repeated for families with kids and 
how scared they were, clearly, changes have to be made.
    So I wanted to focus on the legislation that we've been 
working on with Senator Nelson, and I think it's very important 
that we upgrade--and I'm Co-Chair of the Next Gen 911 Caucus. 
First of all, I introduced last Congress with Senator Fischer--
and this is more on the rural focus--the Rural Spectrum 
Accessibility Act, and it was included in the MOBILE NOW Act 
that passed the Senate.
    Mr. Bergmann, how can spectrum disaggregation and other 
incentives be used to increase wireless coverage in rural 
areas?
    Mr. Bergmann. So thank you, Senator Klobuchar. We really 
commend you and appreciate your work on that Rural Spectrum 
Accessibility Act. As anyone from rural America knows, there 
are real challenges in making sure that we have service out 
there in the hardest to serve areas. Geography is challenging. 
Topography is challenging. Sparse populations make it 
difficult.
    So we need to do things to make it easier to serve out 
there, and by creating incentives to put spectrum to use in 
rural areas, we can give providers greater incentive and lower 
the barriers to building out networks. That's a perfect tie-in 
to our focus here today, making sure, you know, as you talked 
about, that we have the most recent 911 services, that we have 
Wireless Emergency Alerts. All of that is dependent on making 
sure that we can build out to those rural areas, and we believe 
that legislation will help advance that goal.
    Senator Klobuchar. Thank you.
    Ms. Fowlkes, ensuring that the right people receive an 
emergency alert, as Senator Schatz has pointed out--the FCC 
will be voting soon on an order that would require wireless 
providers to target alerts within one-tenth of a mile. How will 
the FCC verify that the wireless alerts being sent out satisfy 
these new requirements?
    Ms. Fowlkes. At this point, because the proposal hasn't 
been voted on by the Commission, I can't get into more details 
about what the order may or may not say.
    Senator Klobuchar. Could you talk about--as Senator Nelson 
and I worked to pass this bill--how would interoperability 
between systems increase effectiveness in advanced alert 
systems?
    Ms. Fowlkes. That's an issue I will have to take back.
    Senator Klobuchar. OK. The order that the FCC will soon 
consider will allow local public safety officials to better 
target emergency alerts. The FCC order will require 
participating providers to shift from a network-based approach 
to one that also uses the location capabilities within cell 
phones to target messages. Once operational, this will minimize 
the likelihood that someone outside of a disaster area receives 
an unnecessary alert.
    Mr. Bergmann, how will wireless providers work with device 
manufacturers to ensure this new functionality?
    Mr. Bergmann. Thank you, Senator. I really looked hard at 
the--of the FCC's order that will be considered next week and 
something that public safety is identified as the single most 
important improvement in Wireless Emergency Alerts that we can 
have. If you sort of turn back the clock when Wireless 
Emergency Alerts were first launched, you could target to the 
county level. Today, now, we've improved that. You can target 
down to the cell sector, to the individual cell tower, and what 
this capability will let us do is not only use that targeting 
of the network, but also to use intelligence in the device, to 
try to figure out whether the device is within that target area 
that's identified by the alert authorities.
    So we think this is going to be a really significant 
improvement, that it will help address that over-alerting and 
benefit public safety and consumers.
    Senator Klobuchar. OK. Very good.
    Mr. Matheny, one last question here. Alerts over 
traditional broadcast networks have long been a reliable way, 
and, certainly, these broadcast all the time in Minnesota for 
floods. When we have floods, daily reports get out there for 
people. Broadcasters are often able to continue operating 
during and after severe weather, which we often have in the 
Midwest.
    With new technology, broadcasters may soon be able to 
deliver additional information to viewers on fixed mobile and 
handheld devices. What level of targeting will this new 
capability provide, and what additional alerting measures can 
broadcasters make available?
    Mr. Matheny. So I believe--thank you, first of all. I 
believe you're speaking of the Next Gen TV Standard, ATSC 3.0, 
and the advanced alerting capabilities that are therein. First 
of all----
    Senator Klobuchar. That's a nice way of describing what I 
said in words. Thank you. Yes, that's exactly what I was 
talking about.
    Mr. Matheny. The Next Gen TV Standard, first of all, allows 
for waking up devices. So if a device is asleep, it can be 
woken up. That is a distinct feature that was designed in. Once 
the device is woken up, you have the ability to do targeting. 
The standard has just been completed, and the actual 
implementation of that is still being developed. But it will be 
similar to the--what Mr. Bergmann just described, in using the 
location of the device to determine if it's in the affected 
area. We are still talking about a one-way broadcast delivery 
of the alert.
    Additionally, the Next Gen Standard allows for sending 
multimedia content. So you could think of an evacuation map. 
You could think of--if it's a tornado, a tornado track map. You 
could think of an evacuation--like I said, an evacuation, or 
even a video file that would come down and tell you explicitly 
what is happening, and that would be a video on demand file. 
This would be in addition to the normal coverage that our 
stations provide.
    Senator Klobuchar. Very good. Thank you very much.
    The Chairman. Thank you, Senator Klobuchar. And Senator 
Klobuchar is looking for the Vikings 3.0, too.
    [Laughter.]
    Senator Klobuchar. OK. Really, did you--I mean, this has 
nothing to do with the Vikings. This is like about Hawaii that 
doesn't have an NFL team, I'd like to point out.
    The Chairman. Oh?
    Senator Klobuchar. Or South Dakota, for that matter. But 
then you decide you can take pot shots at my team, but let us 
not forget that catch.
    [Laughter.]
    The Chairman. OK. We've got to go back to the good stuff.
    Senator Udall is next, but Senator Sullivan has to preside 
on the floor. Could he ask his questions next? Would that be 
OK?
    Senator Udall. Yes.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Senator Udall. And I'll just 
come clean. We don't have an NFL team, either.
    [Laughter.]
    Senator Sullivan. And thank you, Senator Capito.
    I just have a couple of questions, but I'm just going to 
ask them at the same time for Ms. Fowlkes. It relates to--in a 
very kind of--a big event that occurred in Alaska just on 
Tuesday morning. Very early in the morning, a 7.9 magnitude 
earthquake hit in the Gulf of Alaska. As a result of this 
earthquake, many of my constituents in coastal communities were 
alerted to the threat of a tsunami and told to relocate inland. 
Many did. It was pretty much in the middle of the night.
    However, some of our carriers were not able to send the 
notification because of the lengthy and complicated process 
required by the FCC to set up emergency alerts on their 
systems. This is particularly the case with regard to some of 
our--many of the carriers in Alaska are small companies, so 
going through the lengthy process--complicated process that the 
FCC--puts a big burden on them. Are there things that you are 
looking at with regard to streamlining the process to take into 
account some of the smaller companies that can participate?
    Also related, there have been reports that several coastal 
Alaska radio stations did not get their EAS signal after the 
earthquake at all or got it 30 minutes after the wireless 
alerts went out on cell phones. Can you speak to that and what 
you're trying to do on those issues?
    And I know I've asked a couple of questions. I thank my 
colleagues again for indulging me here. It's an important issue 
for my state and others.
    Ms. Fowlkes. I'm not sure what they mean by a long process 
of the FCC. Under the FCC's rules, if a wireless carrier wants 
to participate in WEA, they send us a notification saying that 
they're electing to participate in part, which may mean some of 
their geographic service areas but not others, or in part could 
also mean they're not offering WEA on all of their cell phones. 
Or they can elect to participate in full, which basically means 
they're participating across all their devices and all their 
geographic areas.
    Once they've done that, the only thing for them to do is 
what other carriers would be required to do, which is to have 
the WEA--to be able to offer the WEA capable phones and to be 
able to make sure that their network is set up to receive WEA 
alerts. But other than the election itself, there isn't some 
drawn out process with the FCC that they would have to go 
through.
    Senator Sullivan. OK. Well, maybe what we can do is work 
with you and some of our smaller carriers who have had 
concerns. And then on the question of the radio stations?
    Ms. Fowlkes. That's something we actually are looking into. 
The tsunami alert that occurred up in Alaska--that's something 
that we can certainly look into and include in our 
investigation.
    Senator Sullivan. Good, because if we can learn from this--
I mean, fortunately, there was no tsunami, but it was very 
scary for hundreds if not thousands of my constituents. It 
would be good to be able to learn from this so we can be ready 
next time. Thank you.
    The Chairman. Thank you, Senator Sullivan.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Thune, and thanks to you 
and Senator Schatz for focusing on these very important 
questions. My understanding--some of your questions probably 
could have been answered by FEMA, and FEMA is not at this 
hearing. I know that you requested them. But it seems to me we 
should try to get some answers some way. I'm happy to 
participate in a letter or however you want to do that. But I 
think we need the answers to your questions.
    Based on the answers we've received from this panel--which 
they don't seem to have the information, especially Ms. 
Fowlkes--it's FEMA we should be directing things to, don't you 
think, on some of those questions you were unable to answer? 
You said you didn't have authority?
    Ms. Fowlkes. To the extent that you're asking about 
anything other than our authority or our regulation of the 
communication service providers' participation, I would agree.
    Senator Udall. Yes. Ms. Fowlkes, it's my understanding that 
the states are required to file Emergency Alert System plans 
with the FCC?
    Ms. Fowlkes. Yes.
    Senator Udall. There are a few tribal nations whose 
reservations cross at least one state line. In the case of New 
Mexico, we have the Navajo nation, which is in three different 
states. Are tribal nations under that same requirement of 
filing?
    Ms. Fowlkes. No. The tribal nations do not have to file 
separate EAS plans. What typically happens is to the extent 
that there are parts of tribal nations in states, those states 
take into account the need of those tribal nations. That's 
certainly how the New Mexico state EAS plan is set up.
    Senator Udall. Good, good. Thank you.
    It's important to every bureau of the FCC to engage 
directly with tribal nations. Have you had the opportunity to 
work with tribal nations on their unique public safety needs?
    Ms. Fowlkes. Certainly. For example, the Public Safety and 
Homeland Security Bureau oversees an advisory committee, the 
Communications Security, Reliability, and Operability Council. 
We have had representatives of tribal nations serving on that 
committee, in addition to which we had a separate committee of 
911 Centers focused on Next Generation 911. We had 
representatives of tribal nations on that committee as well.
    Senator Udall. And as all of you probably know, it's very 
important to get these alerts out if you have wireless 
coverage. But many of these tribal nations don't have it at 
all, and so you're dealing with an additional huge hurdle in 
terms of getting emergency alerts and those kinds of things 
into tribal nations territory.
    Mr. Matheny, I appreciate the work that our local 
broadcasters do every day, but particularly in times of threats 
to public safety, such as during wildfire season, which we have 
in the Southwest and we've seen at various places around the 
country. As you're aware, broadcasters in New Mexico rely 
heavily on translators to serve rural communities, and I'm 
concerned that the ongoing spectrum repack process could leave 
these rural consumers behind.
    It's my understanding that the current allocation of $1.75 
billion is inadequate to meet the needs of the broadcasters 
relocating. Is there a better estimate of the amount of money 
that's needed, including the funds needed to ensure that 
translators do not go offline in rural areas?
    Mr. Matheny. Thank you, Senator Udall. So you are certainly 
correct that $1.75 billion was allocated----
    Senator Udall. And that's the number that I believe 
Chairman Pai testified to.
    Mr. Matheny. Yes, and so Chairman Pai has testified that 
there is not enough money.
    Senator Udall. Yes.
    Mr. Matheny. So he is on the record with that as well, and 
we certainly don't believe there's enough money, either. Based 
on the initial results of the cost estimates submitted by TV 
stations, the real number is going to end up being around $3 
billion. So there's a substantial disconnect in the funds 
available and what's really going to be needed.
    So we are certainly keen to see the Viewer and Listener 
Protection Act that Senators Moran and Schatz have sponsored to 
take hold and get approved, because we think it's going to be 
necessary to make sure that stations stay on the air and are 
able to continue to operate, including translators. And in the 
context of this hearing, that certainly means that emergency 
alerts are still going to be available to those populations.
    Senator Udall. Yes, and I'm also an original co-sponsor of 
that bill. I think we have to make this investment. I don't 
think there's any doubt about it. I've got a couple of 
additional questions, but I'll submit them for the record. 
Thank you to the panel very much.
    The Chairman. Thank you, Senator Udall, and your point is a 
good one. We did attempt to get FEMA here. They need more lead 
time, evidently, to prepare for this. Maybe in light of what 
happened, they need it. I do think that there are questions 
that--obviously, FCC is this committee's jurisdiction, and FEMA 
is DHS--but that only they and others can answer, and I'm 
hoping that we'll be able by the time the field hearing in 
Hawaii occurs to get the other parties to this discussion 
involved and engaged and, hopefully, able to answer some of 
those questions. I mean, there are still, to me, unanswered 
questions. I know there are attempts already, legislatively, to 
cure some of the problems that we had this time around.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, and I thank the 
Ranking Member.
    I know it has been a difficult several days and weeks since 
this occurred, and I'm kind of going to go on the FEMA thing. I 
just want to get this question on the record, Ms. Fowlkes. I'm 
pretty sure you don't know the answer to this question or you 
don't have it.
    But I think it's the one question that many people, when 
they read the story, at least at a cursory level, sort of 
wondered, and that is: How is it that a single government 
employee could trigger an alert without any kind of meaningful 
mechanism to sort of override or--you know, do you want to 
delete, do you want to delete? Was there any? And do you have 
any light to shed on that basic question?
    Ms. Fowlkes. That's actually one of the issues that we're 
exploring as part of our investigation, what Hawaii's process--
what happens and what Hawaii's process was.
    Senator Capito. I think we'll all be interested in hearing 
that.
    Mr. Matheny, were the warnings broadcast over TV?
    Mr. Matheny. Yes, they were.
    Senator Capito. In a scrawl kind of thing? Or how was that 
presented to the viewers?
    Mr. Matheny. Yes, they were. There were scrawls on TV, and 
then it was an audio played on radio.
    Senator Capito. OK, because I actually was talking with 
somebody yesterday who was there in a hotel room, and they must 
have missed the first scrawl on the TV, but they did get the 
warning system through their phone, both of them. They were 
visitors.
    But I wanted to tell Senator Schatz that the hotel they 
were staying in was right on top of it. They were--a warning 
system to the entire hotel with directions as to what they 
should do, encouraging everybody to come in and go--I mean, I'm 
sure it was frantic--but to go to the basement. So I would say 
since you have so many tourists and so many people staying in 
hotels, that's good to know that you're tourism industry is 
reacting quickly to something like this. That's one of the best 
practices that came through.
    I also want to thank Mr. Matheny, too, for the broadcasters 
when we had our thousand year flood in June 2 years ago. I am 
convinced we would have lost more lives than we did had we not 
had the rapid response, both through the radio and certainly 
social media, but also through our broadcasters. So thank you 
for that and also thank you for--the broadcasters for staying 
on the story. It wasn't a one-day story for us, and it wasn't 
treated as such by the broadcasters.
    Mr. Matheny. Sure, and thank you for recognizing that. I 
think that is one of the key elements of broadcasters, is that 
they are local and part of the community and committed to 
helping prepare for weather and recover.
    Senator Capito. Right.
    Mr. Bergmann, let me ask you a real simple question here. 
If you're in a no-service area on your phone, do you get these 
alerts?
    Mr. Bergmann. You need to be within the coverage area in 
order to receive a wireless emergency alert, which really does 
put a premium on the conversation we were having earlier about 
making sure that we're doing everything we can to make coverage 
available in rural areas.
    Senator Capito. This is a major issue for us, not just on 
the wireless side but, obviously, on the broadband side, and we 
have, in our state, particular challenges because of the rural 
nature, but also the geographic nature of the state of West 
Virginia makes it difficult. But when I can drive eight miles 
outside of my capital city and lose coverage, there's still a 
lot of work that needs to be done. I know you know this. I just 
wanted to reemphasize that.
    Last, I'll just tell a little story. On December 7, 1941, 
my uncle was stationed at the Schofield Barracks in Hawaii when 
Pearl Harbor was attacked, and my mother was 15 at the time. 
One story that she told us that was kind of interesting, 
especially in this day and time when you're talking about 
instantaneous messages and instantaneous retraction of messages 
within 40 minutes, which sounds like a lifetime--but she told 
me that if it weren't for the ham radio operators, her parents 
would have never known that their son was okay.
    It took days for it to come across the country, and I'm 
sure some of those messages were not quite as positive as the 
ones my grandparents and my mother received that day. So, Mr. 
Lisenco, your organization's long history is well appreciated.
    Mr. Lisenco. Thank you very much, Senator. And, if I may, 
amateur radio was also involved in the effort to achieve 
normalcy in Hawaii after the false alarm. As a matter of fact, 
Hawaii--the Radio Amateur Civil Emergency Service in Hawaii 
activated a UHF and VHF repeater system, and they monitored the 
alerts and the cancellations. Ironically, 20 hours earlier, 
they had drilled with the Hawaii State Emergency Management 
this kind of scenario, and so 20 hours later, there it was 
right in our face.
    We had operators present at the Emergency Operations Center 
and at the state warning point for Hawaii Emergency Management. 
The false alarm was on various information mechanisms within 13 
minutes, and amateur radio operators started to pass that 
message along, whereas the full false alarm notice came 38 
minutes from the initial alarm.
    Amateur radio operators were trained in Hawaii to listen to 
specific types of siren wailings, and each one would determine 
what kind of emergency there was. There was no siren, and so 
that led to a tremendous amount of confusion. They also 
received reports from a Coast Guard vessel relaying the 
cancellation notice before the official cancellation notice 
came out. So amateur radio operators knew pretty much earlier 
than anybody else as to what was going on and did start sending 
that message along.
    Senator Capito. The other issue, I'll just say briefly--if 
I could take just a few more seconds--that I think is real in 
relaying the stories of the folks that were in Hawaii visiting 
was their skepticism over this is a test and this is real, even 
though it was explained that it was real. I do think if we 
perfect a system, we won't have this testing fatigue, you know, 
where you're getting tested and you know nothing's really 
happening. I think that's our immediate response sometimes.
    I think the better the system gets and more reliable, the 
less frequently it needs to be tested, or you can test it in 
different places and don't have to test it always at the same 
site--will really go to this sort of mentality of, ``Well, this 
is a false alarm. It's not really happening. I'm going to wait 
it out and wait and see what happens.'' So I encourage all your 
efforts in that.
    Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much. I'm 
just referring back to an earlier conversation on the 
Committee. I just want everyone to know that there is actually 
a professional football team from Massachusetts, and it will be 
playing in about 10 days in a game out in Minnesota. So I just 
wanted everyone to be on notice to be looking for that.
    [Laughter.]
    Senator Markey. Mr. Bergmann, you said that the rule will 
be implemented in 2019 to increase the character count for 
mobile emergency alerts from 90 to 360. Can we get it done more 
quickly than 2019? How can we telescope the timeframe to get 
this done? It's obviously a big problem.
    Mr. Bergmann. Thanks, Senator, and, certainly, we do think 
that additional capability, having those additional characters, 
will be helpful and will let us pass on more information to 
consumers, let public safety explain situations better to 
consumers. We are certainly an industry about over-delivering, 
so we've hit every deadline so far in terms of WARN Act 
implementation. We certainly want to try to do that again here 
as well.
    Senator Markey. So you could set a goal of completing it in 
2018?
    Mr. Bergmann. Well, you know, I wouldn't want to get ahead 
of the FCC's current deadline, which is May 2019, but I can 
tell you that we'll be doing everything that we can to hit that 
deadline and, if we can, beat it.
    Senator Markey. I think we already saw that deadline as a 
little bit too far out. We definitely need, obviously, to deal 
with the problem. So let's just talk, for example, about what 
could happen at a meltdown at the Pilgrim Nuclear Power Plant 
in Massachusetts, which is at the bottom of the list of best 
managed nuclear power plants in the United States, and, of 
course, people on Cape Cod would have to actually ride past the 
plant to evacuate, so it gets a little bit more complicated.
    So I guess my question to you would be when this event just 
occurred in Hawaii, the message was ``Ballistic missile threat 
inbound to Hawaii. Seek immediate shelter. This is not a 
drill.'' So what would be the message that went off the 
emergency--what would be the information that was communicated 
to people if there was a nuclear power plant meltdown, and 
where would they be told to go? Would they be told to shelter 
in place, or would they be told to evacuate? Here, there was no 
additional information. Where do you go? What do you do? People 
are just wandering crazily around town.
    So if there is a nuclear meltdown--and we still have 100 
plants in America, and it's clear that an accident can happen. 
Fukushima was the most recent. But it is possible. Should there 
be more information, Ms. Fowlkes, that is part of the message 
which is sent out, so it not only warns people but gives them 
kind of a little bit of guidance as well with more than 90--
perhaps with as many as 360 characters so that there's guidance 
that families receive?
    Ms. Fowlkes. The main reason why the Commission expanded 
the character limit of the WEA alerts from 90 to 360 was 
because of the need to provide more information, in addition to 
which the Commission also adopted rules that would allow for 
the WEA alerts to include embedded references. Originally, the 
rules did not allow telephone numbers or a URL link into the 
WEA alert. The Commission has now, given the advancement in 
technology, decided to allow those to be included. There are 
certainly other issues that are before the Commission that we 
are considering in terms of other types of information or 
additional information that can be provided.
    Senator Markey. I think that's very important, and I think 
it has to be tailored, because people would want to know, ``Do 
I shelter in place, or do I just run crazily out into the 
street and head toward what could be the problem?'' And I think 
that's really one of the big issues that has been identified, 
and we're going to have to clarify that.
    Just going back to the Hawaii incident, I don't know how 
much thought has been put into this question of State control 
versus Federal control, because, obviously, the North Koreans 
could also make a miscalculation if they think that we are 
preparing for nuclear war, if they think that the United States 
might have a hair trigger response capacity, you know, that is 
going to be triggered by this emergency evacuation plan that 
has been triggered. So has anyone thought through that reality, 
that the North Koreans could completely misinterpret what is 
going on and actually move them closer to their own hair 
trigger just to prepare because the United States might be 
actually on the verge of attacking? Has anyone thought through 
that issue as well?
    Ms. Fowlkes. From the FCC's standpoint, as you know, we're 
focused on the communication distribution side. That's another 
issue where I would have to refer you to FEMA and DHS for 
decisions.
    Senator Markey. And I think decisions like that should be 
made by the President and by the Pentagon and not by State 
officials. I think it's absolutely imperative that it be put in 
that larger context of understanding how the North Koreans 
might be responding, because it's already too close. They have 
trigger--between our two countries. Too many threats have 
already been issued. So a misreading of that by the North 
Koreans could have actually resulted in a much more 
catastrophic situation. So thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey.
    Senator Cantwell is next.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman and Ranking 
Member. Thank you for holding this hearing.
    When it comes to the Pacific Northwest, I guarantee you, 
with tsunamis and earthquakes and volcanoes, flooding, worrying 
about lahars, you name it, we pay a lot of attention to 
disaster issues. I'm reminded, having been on the Committee for 
some time, that our former colleagues, Senators Stevens and 
Inouye, spent a lot of time on the development of what is the 
Buoy System, which is our earliest detection on the waves so 
that we can have this information, and now NOAA is working very 
diligently on interpretation of that activity so that we can 
get the information to handheld devices. So it is--I think we 
need to be thankful that we've made the investment in 
technology.
    I think the question becomes who in the Federal Government 
owns the protocols for making sure that the coordination 
happens at the state and local level. If so many of the 
partners in the development of that communication or the 
communication itself, for example, the Weather Service, who I 
know isn't with us this morning--how do we make sure that that 
information is there?
    So, for us, out on the Long Beach peninsula, this issue is 
a very big issue. We have established warning sirens and 
warning information, and I think the scientists at NOAA would 
tell us this is what we should be developing. But now we have a 
very rural, isolated community trying to figure out how to deal 
with a tsunami. Many people may remember the story that the New 
Yorker wrote a few years back, The Big One. I never heard from 
so many of my friends around the United States when that 
article appeared, because they all woke up and said, ``This is 
really what's going to happen?''
    So we train constantly, constantly, on this as a 
coordinated effort between Homeland Security, our National 
Guard, our local responders. But who owns at the Federal level 
thinking through what this communication protocol should 
actually look like and how we establish safeguards within the 
protocol so that these kinds of mistakes or information gaps 
are avoided in the future? Because we want to continue with the 
information. That's for sure. So does anybody have a thought on 
that?
    Ms. Fowlkes.
    Ms. Fowlkes. In terms of the communication service provider 
side, certainly, the FCC works with the service providers. We 
have rules that apply in terms of how they're supposed to 
react, in terms of receiving and transmitting the alerts. On 
the alert origination side, on the FEMA side, I'd have to refer 
more to them. I will say that just in terms of general 
coordination, the FCC has at times--well, not just at times, 
but regularly coordinates with FEMA in terms of things such as 
testing or dealing with some of the issues that go to our 
rulemakings.
    To give you an example, with respect to the EAS, there are 
a lot of states, particularly on the western side of the 
country, who do tsunami and earthquake tests, and they want to 
use the live code EAS, which, under our rules, you can't use 
unless it's an actual emergency. We have, working with 
broadcasters and other EAS participants, waived our rules to 
allow the broadcasters, the cable operators, to transmit that 
live code test as part of the broader tsunami exercise that 
FEMA may be doing with the state or local government.
    Senator Cantwell. This isn't--you know, I'm not trying to 
stump the panel. It's more that I think we have a gap here, and 
I know in our state, because the National Guard and the tech 
sector are so strong, they've established what they call 
``hygiene issues'' for cybersecurity--here are the 10 things 
that you should follow for good cybersecurity hygiene.
    Somewhere, it seems to me, we need this protocol list of 
here's what emergency response should look like, and here are 
the safeguards that should be in place, whether you're talking 
about a county or a state or the Federal system, because we're 
going to keep marching ahead. We need the information. We 
desperately want this kind of--when it's an earthquake, you 
only have--you might only have minutes to respond and because, 
as I said, this article about ``The Big One'' in the 
Northwest--we want to see this data and information. But we 
also want to make sure that, like the things that happened in 
Hawaii, we also have new safeguards for false alarms.
    I remember Senator Inouye talking about a previous moment 
in Hawaii's history prior to all this technology where they 
had--I think it went on for hours, he said. They thought a 
tsunami wave was going to hit, and so this went on for hours 
and hours, and that's why we developed the Buoy System. So the 
Buoy System did work the other night in Kodiak, and it gave 
people--even though it went off, it gave people time to then 
understand from the science level that the wave was not going 
to be that great.
    So we want the technology, but we need some protocols as to 
how it's used and how to make sure that there are some 
safeguards there for the public.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Thank you for being here today, and I do wish that FEMA had 
been here. I think they would have been an integral part of 
this discussion. I echo a lot of the concerns from my 
colleagues that I've heard today and appreciate your candid 
comments as well about the challenges we still have moving 
forward, but the good things that are happening with the 
alerts.
    One of the things I do have concerns about sometimes, 
particularly in the state of Nevada where we have a very 
diverse and growing population, are language barriers. I know, 
Ms. Fowlkes and Mr. Bergmann, you talked a little bit about 
this and the actions that were taken in 2016 to enable Spanish 
language alerts.
    Can you talk a little bit more about that and describe how 
that works to ensure understandable alerts are sent to everyone 
and not just Spanish language alone? In Nevada, particularly in 
southern Nevada, we have a large Filipino population, and 
Tagalog is an important language, obviously, and that's a 
barrier for those who do not speak Spanish. So can you talk a 
little bit about language barriers and how you address those 
and where the gaps are and what we should be doing to also keep 
that in mind when we're talking about reaching out to everyone 
in our communities when there is a crisis or a concern of a 
natural disaster?
    Ms. Fowlkes. As you noted, the Commission back in 2016 
adopted rules to facilitate Spanish language WEA alerts. We do 
currently have the broader issue that is pending before us that 
we're still considering regarding other languages and to what 
extent we should be looking at WEA alerts in other types of 
languages.
    Senator Cortez Masto. Not there yet, though.
    Ms. Fowlkes. Not there. It's pending.
    Senator Cortez Masto. And, then, Mr. Bergmann, if you don't 
mind talking a little bit about how you--particularly with 
Spanish, how you overcome that barrier with the technology?
    Mr. Bergmann. Sure, Senator. I think we certainly agree 
with you and think that's an important improvement. It's one 
that we're working diligently to implement. And then I would 
just flag again the addition of URLs plays an important role, 
too, because we think often of WEA as a bell ringer. The idea 
is that you're letting folks know there's an issue and then 
giving them the opportunity to go and get additional 
information. So, together, those two tools, we think, will be 
very valuable for consumers, particularly for those who speak 
languages other than English as well.
    Senator Cortez Masto. Thank you. And besides language 
barriers--and I echo my colleagues again--there are geographic 
barriers, rural communities, particularly, in Nevada and across 
the country that are still struggling to have broadband access 
and access to be able to use some of the technology that's out 
there that's providing this information. I know this is an area 
where we've talked and will continue to support to bring 
resources and funding to our rural communities to connect them. 
But, to me, this is just a crisis as well, that they are not 
connected right now, and it's a focus for many of us.
    Let me ask you this. Cybersecurity--is there any concern 
about hackers hacking into an alert system in any manner 
whatsoever? Have we seen any of that, or is there something 
that you're thinking about or making sure you're addressing in 
the infrastructure?
    Ms. Fowlkes. The FCC has addressed the issue of 
cybersecurity, particularly with respect to the EAS, through 
its advisory committee. You may or may not recall that back in 
2013, a hacker gained access to EAS equipment at various 
broadcast stations across the country. We conducted an 
investigation, and we asked our advisory committee to come up 
with best practices that EAS participants could use to make 
their equipment more secure, in addition to which the FCC, 
through its advisory committee, has developed best practices 
for really all the communication sectors to address security 
risk management, specifically, how to implement the NIST 
framework.
    Senator Cortez Masto. The best practices are there, but 
there's no guarantee that they're going to be adopted.
    Ms. Fowlkes. We have taken steps to strongly encourage 
communication service providers to implement those best 
practices. We also work with industry organizations, and many 
of the industry organizations, for example, NAB, has done a lot 
to encourage its members to implement those best practices.
    Senator Cortez Masto. Right, but we're still at the stage 
of encouragement and not necessarily mandated that the use is 
being implemented.
    Ms. Fowlkes. Yes.
    Senator Cortez Masto. Thank you. I appreciate the 
conversation today.
    The Chairman. Thank you, Senator Cortez Masto.
    Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you. I want to thank the Chair and 
the Ranking Member for today's hearing. I also want to thank 
our witnesses for participating in this very important 
discussion.
    As a proud graduate of the University of Hawaii at Manoa--
go Rainbows--no one else? No one else in the room. There's 
never anybody from my----
    Senator Schatz. Not even me.
    Senator Duckworth. Not even you. Not even you. What does 
that say?
    [Laughter.]
    Senator Duckworth. But Hawaii's recent false alarm is a 
fascinating test case, I think, for Federal and state and local 
policymakers. On the one hand, it worked exactly the way it was 
supposed to. It was a false alarm, but the execution of the 
alarm actually worked as it was designed. A message was sent by 
an alerting authority and effectively disseminated to the 
targeted population.
    On the other hand, it was sent in error, terrifying the 
entire state for nearly an hour. I actually landed in South 
Korea on my way to the DMZ when it popped up on my phone saying 
that this had happened. So the situation really exposed some 
gaps in the training processes and ergonomics of the software 
of the alerting authority.
    Mr. Bergmann and Mr. Matheny, it seems to me that the 
questions raised and the gaps identified in the Hawaii case 
focus more on alerting authorities and FEMA jurisdiction than 
the FCC and the alerting disseminators. Would you agree with 
that?
    Mr. Matheny. Yes, I would. I agree with the way you 
outlined it, which is that the broadcast infrastructure worked. 
The transmission worked. The message did get out. 
Unfortunately, in this case, it was a mistaken message. So I 
think that, as we've been discussing today, it requires us all, 
in particular on the FEMA side, to revisit who can generate an 
alert and how that alert is generated. But as it relates to the 
dissemination and the transmission, I think, as you've stated, 
that piece of the process worked as designed.
    Mr. Bergmann. Senator Duckworth, I would agree as well, 
too. On the wireless side, the alert was delivered exactly as 
intended, and I think one of the key focuses of this hearing is 
making sure that we have public trust and confidence in the 
system, and I think we can certainly say we have that on the 
delivery side. I understand the Committee's appropriate focus 
on making sure that that trust extends across the entire 
system. But the system performed well on the wireless side.
    Senator Duckworth. Thank you. So I want to sort of contrast 
that with something that my colleague, Senator Sullivan, talked 
about, the recent tsunami warning in Alaska. I think that's 
more of an appropriate test case where an emergency alert was 
sent to a wide swath of residents, many who were in the danger 
zone, but then a lot of folks who were outside of the danger 
zone and probably did not need to be alerted. The Alaska 
example exposes a potential gap in the Wireless Emergency Alert 
system's effectiveness in large rural environments. I have this 
situation in Illinois where I have Chicago--we have a couple of 
major metropolitan areas, but then large rural communities.
    So my understanding is that in Anchorage, residents 
received an alert at 12:36 a.m., even though they were not in 
the danger zone, geographically, and I can appreciate alerting 
authorities' interest in erring on the side of caution. But it 
seems more likely that forecast boundaries and census 
boundaries, combined with technology limitations, also played a 
role in those folks in Anchorage receiving the alert.
    Ms. Fowlkes, Senator Sullivan touched on this. But has FCC 
done any after-action analysis of Alaska's recent tsunami 
warning to determine the WEA's effectiveness in this instance?
    Ms. Fowlkes. We are in the process of looking into it, yes.
    Senator Duckworth. You are. Do you have any idea how long 
that review might take, or if we'll be able to see the results?
    Ms. Fowlkes. At this point, I can't give a specific 
timeline. But, as always, my team moves very carefully and very 
expeditiously.
    Senator Duckworth. Wonderful.
    Mr. Bergmann, what can you tell us about the effectiveness 
of geo-targeting technology, and where are the gaps? Which 
emergency situation is WEA least suited, and where should 
industry, the FCC, and Congress focus our attention? And is 
there an issue with somebody who may have their GPS locator 
turned off on their phones?
    Mr. Bergmann. Thanks, Senator. I think you've put your 
finger on one of the most important improvements that we're 
poised to make, which is improving the geo-targeting of 
Wireless Emergency Alerts, and the example that you talked 
about--this is exactly why we think about alerts as trying to 
target it to the folks who are actually in danger and not over-
alerting.
    So there are two components to that. One we've implemented 
now, which is taking advantage of greater capabilities within 
the network to go below the county level so that alert 
originators can draw the polygon, the geographic area that they 
want to reach, and so they can do that today. The next step in 
that will be taking advantage not just of the network, but also 
of the capabilities in the device. So their turning on features 
like location is, obviously, critically important to that. You 
want to make sure that you can take advantage of that location 
information in order to appropriately geo-target it.
    Now, I think a comforting piece of information there is if 
the geo-targeting is turned off, they'll still receive the 
message. So it's not as if the consumer would not receive the 
message in that circumstance.
    Senator Duckworth. Thank you, and I'm out of time.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Duckworth.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Lisenco, thank you for being here and 
thank you for your written testimony. On page nine of your 
written testimony, you talk about the Hawaii amateur radio 
operators during the recent false alarm. How were these 
operators able to disseminate a cancellation notice about 
Hawaii's ballistic missile false alarm before others were able 
to do so? Can you explain how amateur radios were able to 
provide that notice before others?
    Mr. Lisenco. Senator Wicker, first, let me start by 
thanking you for your continuing support of amateur radio and 
your bill, S. 1534.
    Senator Wicker. Thank you, and I might point out that 
Senator Blumenthal is a co-sponsor of that, and I appreciate 
his bipartisan support for this.
    Mr. Lisenco. Thank you. As I had mentioned earlier, 
ironically, amateur radio members in Hawaii had just been 
drilling 20 hours before the actual false alarm, so everything 
was fresh on their minds. Now, because they are able to work 
outside of the local infrastructure and they were not 
participants within the actual initial notification, they got 
word out through various VHF and UHF repeaters about the false 
alarm within 13 minutes after the initial alarm.
    They were picking up information from various sources, 
including a Coast Guard vessel that was just outside of the 
area. And as a result, because they were able to disseminate 
that information freely within the 13 minutes, they were able 
to get that word out right away. Whereas there was a lot of 
confusion in the area to them as well, because they were taught 
to listen for a certain type of siren warning that never came, 
so they were dependent upon information that they were gleaning 
from within the community itself.
    Senator Wicker. Well, let me then switch to Katrina. Why, 
in situations like Hurricane Katrina, are the amateur radios so 
much more resilient and able to be there as a backup to the 
more well known forms?
    Mr. Lisenco. Well, for a number of reasons. First of all, 
we're not dependent upon the infrastructure to operate. If the 
power goes down, we're able to use generators, solar power 
panels, batteries, what have you, and because we understand how 
radio works, we're able to adapt very quickly to any situation, 
whereas most first responders are using technology that they 
really can't adapt to a given situation because they don't have 
a basic understanding.
    We're able to walk into a situation, take notice of the 
surroundings, what kind of operation would be effective at that 
point, and then move along those lines very quickly. The big 
thing is that when all else fails, we really are able to 
provide emergency communications as required.
    Senator Wicker. So things are OK. But why is the new 
legislation so important? What would it give us that we don't 
have?
    Mr. Lisenco. Well, you have to remember that amateur radio 
is unique in that we are disseminated geographically throughout 
the entire country. So, very often, what will happen is we'll 
have amateur radio operators both within and outside of a 
disaster area. That gives us a unique ability to disseminate 
information from within a disaster zone that others don't have. 
The fact that we're not dependent upon the infrastructure then 
gives us the ability to work outside of it.
    So, for instance, during Sandy--I'm from--if you can't tell 
from my accent, I'm from Brooklyn. We had devastation 
throughout the coast of both New Jersey and New York going out 
to Long Island. The flooding was so severe that we had people 
who were stuck in their homes, obviously, waiting for help. We 
had amateur radio operators who were inside of the flood zone 
and were able to send messages to first responders outside of 
the flood zone as to where people needed help, and very often 
in an emergency of that nature, it's as important to know where 
you need help and where you don't need help so you don't waste 
the resources that you have, which are limited during a 
disaster. So you don't want to send a first responder to the 
wrong address when there's nobody there to save. We learned 
that it's that dissemination of resources that is a strong 
point for us.
    Senator Wicker. Thank you.
    The Chairman. Thank you, Senator Wicker.
    Senator Schatz, anything else?
    [Nonverbal response.]
    The Chairman. Well, I think we've pretty well covered the 
subject today with the folks that are here, and, as I mentioned 
earlier, there are some folks who are not here who I think 
could shed considerable light on some of the other aspects of 
the way this process works. But it's clear to me, at least, and 
I think most of the members of this committee, that we need to 
make some changes, at least with respect to the kind of alert 
that was issued in Hawaii. When it's a nuclear attack, I think 
the chain in that alert system needs to be modified to reflect 
the seriousness of the threat, not that any of them aren't 
serious, but, obviously, this is a very different sort of 
threat.
    Thank you so much for the work that your various 
organizations do in alerting the public, and I encourage you to 
continue to work to develop and refine those processes and 
technologies so that we can become even better and, hopefully, 
more efficient in seeing that people have the notifications 
they need in the face of various disasters that come our way. 
So thank you.
    We will keep the record open for members on the Committee 
who would like to submit questions for the record for a couple 
of weeks and would ask the witnesses, as soon as they can, to 
get those responses in, preferably in a couple of weeks' time 
so we can close out the record of the hearing. We, again, 
appreciate all of you being here today.
    With that, this hearing is adjourned.
    [Whereupon, at 11:42 a.m., the hearing was adjourned.]

                            A P P E N D I X

                                Big City Emergency Managers
                  National Emergency Management Association
            International Association of Emergency Managers
                                                   January 23, 2018

Chairman Ajit Pai,
Commissioner Mignon Clyburn,
Commissioner Michael O'Rielly,
Commissioner Brendan Carr,
Commissioner Jessica Rosenworcel,
Washington, DC.

Mr. Chairman and Commissioners,

    First, we wish to share our appreciation and thanks to Chairman 
Pai, Commission staff, and public safety stakeholders for their efforts 
to date, and thank you to Commissioners Clyburn, O'Rielly, Carr, 
Rosenworcel and your staff for your consideration of this item. We 
believe that the proposed changes to the Wireless Emergency Alert (WEA) 
service will save lives. With respect, we have included several changes 
to the proposed rules for your consideration.
    As APCO stated in its January 12th ex parte to the Commission, ``in 
addition to expressing support for requiring geo-targeting enhancements 
by 2019, we recommend the incorporation of rule language to add clarity 
to the obligations of participating WEA service providers. For example, 
the language of Final Rule Section 10.450 could specify that, ``No 
later than November 30, 2019,'' participating CMS providers must match 
the target area. Section 10.450 could also reflect the language of the 
draft Order specifying that this deadline is to apply to ``new mobile 
devices offered for sale after the rule's effective date and to 
existing devices capable of being upgraded.''
    APCO also stated, and we agree, that ``[t]he rules could also 
clarify the narrow intent of what it means to be technically incapable 
of matching the specified target area.'' Based on the record, it is 
technically feasible to achieve the geo-targeting goal by November 30, 
2019, through software upgrades to many existing devices and with the 
introduction of new devices. Thus, the rules should be clear that 
``technically incapable'' should not apply where providers have failed 
to develop standards, implement network and device changes, or pursue 
other technological solutions. After November 2019, CMS providers may 
only fall back to the ``best approximates'' standard in a narrow set of 
circumstances. While we expect participating CMS providers to continue 
serving as good partners in this trusted and official public safety 
alerting system, the FCC's rules should minimize the potential for any 
confusion with respect to the carriers' obligations to achieve geo-
targeting improvements.
    Accordingly, we respectfully request the following changes to the 
proposed rules:

  (a)  [REVISED SECTION 10.450 (a)] This section establishes minimum 
        requirements for the geographic targeting of Alert Messages. A 
        Participating CMS Provider will determine which of its network 
        facilities, elements, and locations will be used to 
        geographically target Alert Messages. A Participating CMS 
        Provider must deliver any Alert Message that is specified by a 
        geocode, circle, or polygon to an area that matches the 
        specified geocode, circle, or polygon. A Participating CMS 
        Provider is considered to have matched the target area when 
        they deliver an Alert Message to 100 percent of the target area 
        with no more than 0.1 of a mile overshoot. If some or all of a 
        Participating CMS Provider's network infrastructure is 
        technically incapable of matching the specified target area, 
        then that Participating CMS Provider must deliver the Alert 
        Message to an area that best approximates the specified target 
        area on and only on those aspects of its network infrastructure 
        that are incapable of matching the target area. [NEW LANGUAGE 
        FOLLOWS] [A CMS Provider's ability to claim that its network 
        infrastructure is technically incapable of matching the 
        specified target area is limited to instances described in the 
        Order, including when the target area is outside of the 
        Participating CMS Provider's network coverage area, when mobile 
        devices have location services disabled, and when legacy 
        networks cannot be updated to support this functionality. In 
        all other instances, the CMS Provider must deliver an Alert 
        Message to 100 percent of the target area with no more than 0.1 
        of a mile overshoot.]

  (b)  Leave as existing in Section 10.450 (b)

  (c)  [NEW SECTION 10.450 (c)] Participating CMS Providers are 
        required to transmit Alert Message polygon coordinates to 
        mobile devices without affecting the 360 character allotment 
        for displayable Alert Message text.

  (d)  [NEW SECTION 10.450 (d) Participating CMS Providers shall comply 
        with these Geo-targeting rules no later than November 30, 2019. 
        These rules shall apply to new mobile devices offered for sale 
        after the rule's effective date and to existing devices capable 
        of being upgraded.

    In response to the proposed rule changes, CTIA submitted an Ex-
Parte on 1/17/18 discussing several of the same concerns around the 
definitions related to the new rules. While CTIA suggests that the 
Commission simplify the definition of ``WEA-capable'' devices to any 
mobile wireless device that can receive a WEA message and noted that 
the Commission could suggest that CMS providers and equipment vendors 
disclose that a device may not support all WEA features. This 
simplification is misleading to consumers and will allow providers and 
device manufacturers a loophole to not provide the much needed WEA 
enhancements to some wireless users. While we hope that our industry 
partners will continue to work with us on providing all of the life-
saving WEA enhancements, we find CTIA's proposed definition for WEA-
capable devices to be too simplified. We respectfully request that the 
Commission clearly define WEA-capable devices as those that are fully 
capable of receiving all WEA messages and associated content.
    In summary, we believe the existing proposed Order with these 
changes to the Rules will result in a significantly improved Wireless 
Emergency Alert system.
    Thank you again for your consideration of these changes.
            Sincerely,
                                                Barb Graff,
                                                             Chair,
                                           Big City Emergency Managers,
                                                          Director,
                        City of Seattle Office of Emergency Management.

                                                Ron Prater,
                                                Executive Director,
                                           Big City Emergency Managers.
                                              https://www.bigcityem.org

                                           Mike Sprayberry,
                      National Emergency Management Association (NEMA),
                                            President and Director,
                       North Carolina Division of Emergency Management.
                                               https://www.nemaweb.org/

                                             Nick Crossley,
                                                         President,
                                     U.S. Council of the International 
                              Association of Emergency Managers (IAEM).
                                                  https://www.iaem.com/
                                 ______
                                 
                           Competitive Carriers Association
                                   Washington, DC, January 25, 2018

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Competitive Carriers Association (``CCA'') \1\ commends the 
Committee for its timely oversight of emergency alerting with today's 
hearing on ``This is Not a Drill: An Examination of Emergency Alert 
Systems.'' Recent events and natural disasters have brought public 
focus on emergency alerting, and the Federal Communications Commission 
(``FCC'') will vote on an item updating the Wireless Emergency Alert 
(``WEA'') system next week. As policymakers and industry leaders 
continue to work to make alerts more effective and accurate, CCA 
appreciates the recognition of unique challenges facing competitive 
carriers and providers serving rural communities. Updates to the WEA 
system should promote the most effective and efficient means for 
providing WEA messages in consideration of technology that is both 
capable of executing the requirements and available to all providers 
and consumers.
---------------------------------------------------------------------------
    \1\ CCA is the Nation's leading association for competitive 
wireless providers and stakeholders across the United States. CCA's 
membership includes nearly 100 competitive wireless providers ranging 
from small, rural carriers serving fewer than 5,000 customers to 
regional and national providers serving millions of customers. CCA also 
represents associate members including vendors and suppliers that 
provide products and services throughout the mobile communications 
supply chain.
---------------------------------------------------------------------------
    CCA carrier members' ongoing goal is to provide their customers 
with the latest information, especially during disasters and 
emergencies. Competitive carriers take their obligations to provide 
these services seriously, particularly as many competitive carriers 
connect the communities where they live. Proposed WEA updates, 
including refining the delivery location, will improve the quality of 
information that consumers receive, limit network impacts, and reduce 
the potential for over-alerting. CCA's members continue to work to 
implement enhanced WEA standards. While industry's work continues, 
however, Congress can take steps to ensure alerts are available to all 
consumers, especially in rural America, with a focus on ubiquitous 
availability of devices and deployment of the latest mobile networks 
that power them.
Alerts Depend on Consumer Devices
    While underlying network technology and services are critical to 
providing emergency alerts, consumers ultimately rely on their devices 
to provide refined geo-targeted location and to receive the alert 
itself. As the FCC adopts new regulatory requirements, device 
manufacturers will need sufficient time to analyze changes and 
incorporate new standards into devices, especially when embedding new 
technology for next generation devices. Further, as wireless industry 
groups and Apple have publicly recognized, some devices will not be 
able to meet new requirements via a software upgrade and some legacy 
devices do not support geo-targeting for WEA messages. As Congress and 
the FCC consider new WEA requirements, they must also consider 
carriers' access to the latest devices and the requisite technology 
upgrades necessary to incorporate enhanced alerting standards.
    What's more, smaller rural and regional carriers do not have access 
to the latest devices on the same timeline as the largest carriers, if 
at all. This not only diminishes competition in the wireless industry, 
it also may delay availability of the latest WEA technology, including 
device-based geo-location capabilities. CCA members are committed to 
providing consumers with the most accurate and up-to-date information 
in times of emergency, and will continue to upgrade their networks to 
handle the enhanced requirements; however, they often are hamstrung 
from doing so if the latest device or network technology is 
unavailable. Regulatory updates to the WEA system and timelines for 
implementation must reflect this reality.
    We commend the FCC for its continued work to ensure that WEA 
messages will be delivered using ``best approximates'' location in 
circumstances where the target area is outside a carrier's network 
coverage area, when location services are disabled on a device, or when 
legacy networks or devices cannot be updated to support the 
functionality. Continued oversight is necessary to ensure that carriers 
serving rural America are not forced to seek waivers of overly 
ambitious rules, or worse, opt-out of the voluntary WEA program.
Enhanced Alerting Requires Ubiquitous Mobile Broadband Coverage
    Emergencies and disasters occur irrespective of geography, in both 
densely populated urban centers and the remote wilderness. Timely WEA 
messages can save lives in all of these areas, but only where consumers 
have a sufficient mobile broadband connection to deliver the alert. 
Without robust, seamless mobile coverage, citizens must rely on 
traditional and potentially less-effective methods of communication 
from public safety officials during a crisis. This Committee is all too 
familiar with the persistent digital divide that plagues rural America, 
and CCA supports continued work to close the gap and connect all 
Americans with robust mobile broadband service.
    With continued leadership from this Committee, CCA is optimistic 
that Congress is moving towards implementing policies that support 
mobile broadband deployment and ubiquitous connectivity. For example, 
S. 19, the ``Making Opportunities for Broadband Investment and Limiting 
Excessive and Needless Obstacles to Wireless Act'' or the ``MOBILE NOW 
Act'' proposes steps to support deployment, especially in rural 
America. CCA supports this bill, and encourages the House of 
Representatives to send MOBILE NOW to the President's desk for 
enactment. Additional bipartisan legislative proposals, including S. 
1988, the ``Streamlining Permitting to Enable Efficient Deployment of 
Broadband Infrastructure Act'' or the ``SPEED Act'' and S. 1363, the 
``Rural Broadband Deployment Streamlining Act,'' will promote mobile 
broadband deployment and support advanced services. Congress should 
continue to champion these and other anticipated bills to reduce 
barriers to deployment and increase investment certainty.
    Additionally, CCA appreciates the Committee's work to ensure that 
Universal Service Fund programs, including Mobility Fund Phase II, 
provide support based on reliable data and deliver on Congress's 
mandate to provide reasonably comparable services in urban and rural 
areas. Emergency alerts are yet another example of why this program is 
so important for connecting our Nation.
    CCA thanks the Committee for continued oversight of these critical 
issues and for holding this important hearing. Please do not hesitate 
to contact CCA with any questions.
            Sincerely,
                                           Steven K. Berry,
                                                 President and CEO,
                                      Competitive Carriers Association.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            Lisa M. Fowlkes
    Question. What actions can the FCC take to work with other agencies 
like FEMA to create best practices for Emergency Alert Systems?
    Answer. Upon the completion of the Public Safety and Homeland 
Security Bureau's investigation into the false alert incident in Hawaii 
on January 13th, the Bureau will issue a final report on its findings. 
The final report will include recommended measures to safeguard against 
false alerts and to mitigate their harmful effects if they do occur. 
Once these recommended measures are developed, the Bureau will partner 
with FEMA to engage in stakeholder outreach and encourage 
implementation of these measures. Among other avenues, the FCC is 
considering convening a roundtable with stakeholders in the emergency 
alerting ecosystem to discuss the lessons that should be learned from 
this incident as well as developing a joint webinar with FEMA to 
further educate stakeholders.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Lisa M. Fowlkes
    Question 1. On January 30, 2018, a few days after you appeared 
before this Committee, the FCC's Public Safety and Homeland Security 
Bureau provided a preliminary report on its investigation at the FCC's 
Open Meeting. In order to ensure the most up to date record of the 
FCC's findings is reflected in the hearing record, please provide a 
detailed summary of the FCC's preliminary report including additional 
information the FCC discovered after the hearing. In addition, provide 
the expected date of completion of the FCC's investigation and when it 
expects to complete the final report.
    Answer. The Public Safety and Homeland Security Bureau's 
investigation is ongoing, but I am pleased to provide you with the 
attached report, presented at the January 30, 2018, FCC Open Meeting, 
which summarizes our preliminary findings.
    The Public Safety and Homeland Security Bureau is continuing the 
investigation and will issue a final report upon the completion of the 
investigation. The final report, which we expect to release later this 
spring, will also include recommended measures to safeguard against 
false alerts and to mitigate their harmful effects if they do occur.

    Question 2. Please confirm that the FCC will, as part of its 
investigation, examine whether HI-EMA's or other officials' phone lines 
became congested and, if so, whether phone line congestion hindered the 
ability of government officials to communicate during the incident.
    Answer. Yes.

    Question 3. As part of the investigation, will the FCC examine 
whether and the extent to which officials engaged the 
Telecommunications Priority Service, Government Emergency 
Telecommunications Service, or Wireless Priority Service to communicate 
during the incident and, if used, whether the systems operated as 
expected?
    Answer. Yes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Lisa M. Fowlkes
    Question 1. As your testimony indicates, the Commission places the 
highest priority on ensuring that emergency management authorities and 
first responders have up-to-date tools available to respond to 
disasters. What coordination structures are in place to adjudicate any 
challenges or work through issues that cross jurisdiction between your 
agency and FEMA and how often are you meeting or speaking with FEMA 
officials?
    Answer. FEMA, the FCC, and the National Weather Service work 
together to maintain the Emergency Alert System (EAS) and Wireless 
Emergency Alerts.
    The FCC's role includes establishing technical and operational 
standards for EAS Participants (radio and television broadcasters, 
cable systems, satellite radio and television providers, wireline video 
providers), and for those wireless providers that elect to participate 
in the Wireless Emergency Alert system. For example, the Commission has 
worked closely with FEMA to conduct nationwide tests of the Emergency 
Alert System to assess its reliability and effectiveness, with the most 
recent test occurring in September 2017. Additionally, Commission staff 
regularly interact and coordinate with partners at FEMA and are 
participating members of the congressionally mandated IPAWS 
Subcommittee to the FEMA National Advisory Committee.

    Question 2. How are you at the FCC working with FEMA to communicate 
with one voice and purpose to the varied stakeholders you need to 
engage--from state and local emergency managers and public safety 
officials in towns across the country all the way up to large 
broadcasting or wireless companies?
    Answer. After the Public Safety and Homeland Security Bureau 
releases its final report on the January 13 false alert, which will 
contain recommended best practices to safeguard against false alerts 
and mitigate the effects of false alerts if they do occur, we plan to 
partner with FEMA to engage in stakeholder outreach and encourage 
implementation of these best practices. Among other avenues, we are 
considering convening a roundtable with stakeholders in the emergency 
alerting ecosystem to discuss the lessons that should be learned from 
the false missile alert incident as well as developing a joint webinar 
with FEMA to further educate stakeholders. We also have worked closely 
with FEMA on a range of public events, such as Presidential and state 
event preparations, nationwide EAS tests, and disaster relief efforts.

    Question 3. As I understand from reading the timeline of the Hawaii 
incident and follow up conversations, had Hawaii EMA not called for 
FEMA for advice, FEMA, absent news reports, would not have immediately 
been notified of the incident. Does the FCC have a monitoring 
capability or central alert repository that receives alerts in real 
time from around the country? What I'm getting at, and what we have 
asked FEMA as well, is whether the FCC has awareness of critical alerts 
as they are sent or whether you rely on external updates for 
situational awareness?
    Answer. The Federal Communications Commission does not monitor the 
origination of emergency alerts. The origination and transmission of 
emergency alerts, either via broadcast emergency alerts (EAS) or 
wireless emergency alerts (WEA) is outside the purview of the FCC. As 
such, the FCC only has notification of an alert being sent through 
public reporting methods.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                             Scott Bergmann
    Question. Please provide relevant wireless industry data collected 
by CTIA or available to CTIA from other sources to describe Wireless 
Emergency Alert system availability and coverage including, for 
example, by geographic region (e.g., state, MSA, rural vs. urban areas, 
etc.), percentage of devices in use by customers, and number of 
carriers offering vs. not offering WEA.
    Answer. CTIA and its member companies are proud of the wireless 
industry's role in the Wireless Emergency Alerts system.

  <bullet> All four national wireless providers and dozens of regional 
        providers, serving more than 99 percent of all U.S. 
        subscribers, are voluntarily participating in the Wireless 
        Emergency Alert system, transmitting thousands of alerts each 
        year and helping our public safety professionals save lives.\1\
---------------------------------------------------------------------------
    \1\ Wireless Emergency Alerts, Order on Reconsideration, 32 FCC Rcd 
9621, 9625, n.28 (2017); see also, FCC, Master WEA Carrier Registry 
File, https://www.fcc.gov/general/commercial-mobile-telephone-alerts-
cmas (last visited Feb. 18, 2018).

  <bullet> CTIA estimates that more than 500 million wireless handsets 
        that can receive WEA messages were sold in the U.S. since 
        2013.\2\ As AT&T has noted, ``most smartphones and features 
        phone released in the last few years are WEA-capable.'' \3\
---------------------------------------------------------------------------
    \2\ See, e.g., IDC Worldwide Quarterly Mobile Phone Tracker (1Q 
2013-3Q 2016), www.idc.com (last viewed Feb. 20, 2018); Counterpoint, 
Apple Sells a Record 22 Million iPhones in USA During 4Q17 (rel. Jan. 
31, 2018), (https://www.counterpointresearch.com/apple-sells-record-22-
million-iphones-usa-4q17/); Statista, Number of smartphones sold to end 
users worldwide from 2007 to 2016 (in million units), https://
www.statista.com/statistics/263437/global-smartphone-sales-to-end-
users-since-2007/) (last viewed Feb. 20, 2018).
    \3\ AT&T, Wireless Emergency Alerts, https://www.att.com/esupport/
article.html#!/wireless/KM1009041) (last viewed Feb. 21, 2018).
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Scott Bergmann
    Question 1. The Wireless Alert system is effective and important, 
but I remain concerned about the lack of infrastructure in rural and 
tribal areas, and the inability of these areas to receive wireless 
alerts in emergencies. I understand that cellular companies use geo-
targeting for the Wireless Alert System. But I also understand that, in 
areas with a ``low tower density,'' companies may have to over-warn the 
communities--that is, they will have to send the notice out to a 
broader area--and this could lead to confusion. Can you address how 
geo-targeting works in areas with low tower density?
    Answer. Wireless Emergency Alerts play a unique role in our 
national emergency alert system that enables authorized federal, state, 
and local authorities (``alert originators'') to distribute emergency 
information directly to consumers' wireless devices. In accordance with 
FCC rules, participating wireless providers support the ability of 
alert originators to determine the content and target area of WEA 
messages.
    Today, participating wireless providers support alert originators' 
ability to target messages down to the cell-sector level. However, 
cell-site density is a key factor in the granularity of these WEA geo-
targeting capabilities. To further enhance the geo-targeting 
capabilities of Wireless Emergency Alerts, the FCC recently adopted new 
rules that will utilize location capabilities in mobile devices to 
allow more precise targeting of alerts, even in areas with low tower 
density. In addition, CTIA welcomes efforts by Congress, the FCC, and 
other relevant federal, state, and local agencies to modernize the 
processes for deploying wireless infrastructure, particularly in rural 
and tribal areas.

    Question 2. In your testimony, you state that under the FCC's 
proposed enhanced geo-targeting plan, providers will rely on the 
technology in mobile devices. But many people disable this technology. 
Can you speak to how the alerts would work if the technology is 
disabled?
    Answer. The geo-targeting capabilities of the Wireless Emergency 
Alerts system play a vital role in disseminating emergency messages 
directly to consumers affected by an emergency. Generally, even when 
the enhanced WEA geo-targeting capabilities the FCC recently adopted 
become available next year, consumers who have disabled location 
services on their mobile device will still receive a WEA message so 
long as the device is within the cell-broadcast area determined by 
alert originators.
    Specifically, participating wireless providers are currently 
required by the FCC to deliver WEA messages to an alert area specified 
by an alert originator subject to where mobile wireless coverage is 
available.\4\ These existing geo-targeting capabilities enable alert 
originators to target WEA down to the cell-sector level.
---------------------------------------------------------------------------
    \4\ See, 47 C.F.R. 10.450; Wireless Emergency Alerts; Amendments to 
Part 11 of the Commission's Rules Regarding the Emergency Alert System, 
PS Docket Nos. 15-91, 15-94, Report and Order and Further Notice of 
Proposed Rulemaking, 31 FCC Rcd 11112 (2016) (WEA R&O and WEA FNPRM).
---------------------------------------------------------------------------
    While the ability to geo-target Wireless Emergency Alerts down to 
the cell-sector level will remain a constant feature of the system, we 
share the expressed goal of public safety leaders to harness innovative 
location technologies to further improve the targeting of alerts. To 
achieve this goal, the FCC recently adopted an Order to enhance the 
geo-targeting capabilities of WEA through device-based technologies 
that harness the location capabilities of a mobile device.\5\ The FCC's 
recent Order requires participating wireless providers to minimize the 
extent to which a WEA alert is presented to consumers outside of the 
alert area to no more than 0.10 mile for devices with such capability.
---------------------------------------------------------------------------
    \5\ Wireless Emergency Alerts; Amendments to Part 11 of the 
Commission's Rules Regarding the Emergency Alert System, Second Report 
and Order and Second Order on Reconsideration, FCC 18-4, PS Docket Nos. 
15-91, 15-94 (rel. Jan. 31, 2018) (Second WEA R&O), available at 
https://www.fcc.gov/document/fcc-improves-wireless-emergency-alerts-0.
---------------------------------------------------------------------------
    It is commonly understood that a device's location determination 
ability is subject to a number of factors, including whether the 
device's location capabilities are enabled by the consumer. For this 
reason, the FCC acknowledged that the enhanced WEA geo-targeting 
capabilities may be infeasible in certain circumstances, including when 
a consumer has chosen to disable location services on their mobile 
device.\6\
---------------------------------------------------------------------------
    \6\ Id. at  9.
---------------------------------------------------------------------------
    In circumstances where enhanced WEA geo-targeting capabilities are 
infeasible, the FCC requires participating wireless providers to 
utilize the existing WEA geo-targeting capabilities to best approximate 
the alert originators' target area, which enables alert originators to 
target down the cell-sector level. Further, when consumers have chosen 
to disable location services, the FCC requires that mobile devices 
display the WEA message by default to ensure consumers who have 
disabled location services on their devices can still act on important 
WEA messages.\7\
---------------------------------------------------------------------------
    \7\ Id. at  10.

    Question 3. Have any of your members engaged with tribal nations to 
work on ways to help deploy wireless service or help build capacity on 
their lands?
    Answer. CTIA's members have worked diligently over the last ten 
years to deploy 4G LTE to more than 99 percent of people living across 
the country, but they recognize that the work is not done to reach all 
communities, including those living on Tribal lands. Indeed, many CTIA 
members offer service on Tribal lands and recognize that many Tribal 
lands face unique and challenging obstacles. Like all consumers, people 
living on Tribal lands would greatly benefit from wireless broadband 
connectivity, not only to have access to a means of communicating with 
friends and family, but for critical public safety services and access 
to business and employment opportunities.
    For that reason, we were encouraged by the FCC's recent renewal of 
the Native Nations Communications Task Force, which will explore the 
unique needs of consumers living on Tribal lands and the best means of 
ensuring they have access to broadband capabilities.\8\ While wireless 
providers have strong incentives to expand their networks to make these 
services available to consumers, it is important to recognize that the 
most remote and sparsely populated areas remain a challenge for 
buildout. CTIA supports the FCC's efforts to coordinate with Tribal 
leaders and develop ways to reduce barriers to deployment on Tribal 
lands.
---------------------------------------------------------------------------
    \8\ See FCC Seeks Nominations for Tribal Government Representatives 
to Serve on Renewed FCC Native Nations Communications Task Force, 
Public Notice, DA 18-127 (rel. Feb. 8, 2018), https://
transition.fcc.gov/Daily_Releases/Daily_Business/2018/db0208/DA-18-
127A1.pdf.
---------------------------------------------------------------------------
    In order to reach the remaining unserved areas, including Tribal 
lands, stable funding initiatives are critical. The Universal Service 
Fund and Rural Utilities Service programs in particular are critical 
for Tribal deployments. In 2011, the FCC also proposed a specific 
Tribal component to Mobility Fund Phase II. CTIA supports a permanent 
and robust Mobility Fund and urges Congress to encourage the FCC to 
move forward with Mobility Fund Phase II implementation so that the 
benefits of wireless connectivity can be attained by consumers across 
the country. These incentives are the most appropriate approach in 
order to incentivize buildout in rural and hard to serve areas, 
including Tribal lands.

    Question 4. According to your membership list on the website 
www.ctia.org, Apple, Nokia, and Samsung are all current members of 
CTIA. I have heard from small carriers that they are concerned that 
their customers will not have access to the devices with the latest 
technology to enable wireless alerts. Have you worked with any mobile 
device manufacturers to ensure that all citizens, regardless of their 
carrier, will have access to devices with the most up-to-date software 
and hardware?
    Answer. The FCC's recent enhanced WEA geo-targeting Order adopted 
an aggressive implementation timeline that will present a challenge for 
all participating wireless providers and device manufacturers. As the 
Order notes, significant standards, deployment and testing work remains 
to support the enhanced WEA geo-targeting capability throughout the 
chain of the alert--from alert originators to FEMA's gateway to 
wireless networks to mobile devices.\9\ However, the wireless 
industry--including participating national and regional wireless 
providers and device manufacturers--will work intently, as it always 
has, in an effort to meet the FCC's aggressive deadline.
---------------------------------------------------------------------------
    \9\ Second WEA R&O  12-14.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                             Scott Bergmann
    Question 1. Your testimonies both highlighted the fact that the 
Hawaii incident, while unfortunate, illustrated a fairly flawless 
execution of the backend alerting protocol supported by the wireless 
and broadcasting community. How, if at all, do the decisions made by 
states and localities when it comes to software or hardware impact the 
operations of the wireless and broadcasting communities?
    Answer. WEA is part of our Nation's emergency alert system managed 
by FEMA through IPAWS. As part of this system, WEA messages and 
associated information, including the geographic target area, are 
received from alert originators through FEMA in a common format using a 
secure process. By centralizing and standardizing the delivery of WEA 
messages to participating wireless providers through FEMA's IPAWS, 
individual alert originator software or hardware has minimal impact on 
the delivery of Wireless Emergency Alerts over wireless networks. 
However, CTIA agrees with Congressional and Federal leaders who have 
highlighted the importance of alert originator training and 
proficiency, including appropriate software and hardware capabilities, 
which are essential to maintaining public confidence in WEA messages.
    Notably, Congress recognized the need to train and equip alert 
originators on ways to more effectively use our Nation's emergency 
alert system when the IPAWS Modernization Act became law in 2015. And 
in 2016, the FCC encouraged emergency management agencies to engage in 
proficiency training exercises that could help minimize system failures 
and ensure that any failures are corrected during a period when no real 
emergency exists.\10\ Further, FCC Commissioner Jessica Rosenworcel 
recently called for new best practices around the training and use of 
our Nation's emergency alert system.\11\ CTIA strongly supports all of 
these efforts and encourages FEMA and other public safety leaders to 
offer training opportunities for alert originators that promise to 
bolster WEA's utility and credibility going forward.
---------------------------------------------------------------------------
    \10\ WEA R&O and WEA FNPRM  67.
    \11\ Remarks of FCC Commissioner Jessica Rosenworcel at Eye of the 
Storm: Broadcasters' Role in Emergencies, Jan. 18, 2018 available at 
https://www.fcc.gov/document/commr-rosenworcel-remarks-broadcasters-
role-emergencies-event.

    Question 2. Have your members developed relationships with State 
and local emergency management/EAS operators and shared challenges or 
opportunities to work together in pursuit of your common goals?
    Answer. At the Federal level, the WARN Act bi-furcated oversight 
and administration of the Wireless Emergency Alert system between the 
FCC and FEMA. This approach reflects the different roles and entities 
that make up our national emergency alert system. The FCC oversees and 
requires participating providers to support capabilities that ensure a 
nationally consistent WEA experience. While FEMA oversees and manages 
the relationships with authorized state and local alert originators, 
CTIA and our member companies participate in various Federal efforts to 
collaborate with state and local alert originators.
    For example, CTIA and our member companies have participated in the 
FCC's Communications, Security, Interoperability and Reliability 
Council, which has evaluated various enhancements to WEA in 
collaboration with state and local alert originators. CTIA also 
participates in FEMA's National Advisory Committee, which Congress 
tasked in 2015 with developing best practices to ensure the continued 
effectiveness of IPAWS, including WEA. Through these efforts, 
stakeholders can exchange ideas and seek consensus on steps that can be 
taken to enhance the utility of and maintain public confidence in WEA.

    Question 3. What are some of the avenues or coordination structures 
your organizations participate in with FEMA? Do you have insight into 
working groups or advisory councils that help facilitate conversations 
around best practices, challenges, etc.?
    Answer. While FEMA oversees and manages the relationships with 
authorized state and local alert originators, CTIA and our member 
companies participate in various Federal efforts to collaborate with 
state and local alert originators. For example, CTIA and our member 
companies have participated in the FCC's Communications, Security, 
Interoperability and Reliability Council, which has evaluated various 
enhancements to WEA in collaboration with state and local alert 
originators. CTIA also participates in FEMA's National Advisory 
Committee, which Congress tasked in 2015 with developing best practices 
to ensure the continued effectiveness of IPAWS, including WEA. Through 
these efforts, stakeholders can exchange ideas and seek consensus on 
steps that can be taken to enhance the utility of and maintain public 
confidence in WEA.

    Question 4. As we know from recent events, the resilience of our 
institutions, and particularly those that provide critical services, is 
essential for the swift response and recovery from natural and man-made 
disasters. Obviously as we talk about infrastructure and resilience in 
the face of changing threats, understanding best practices and 
investments industries are currently making is important. Are you 
required to meet specific resilience or redundancy standards to ensure 
you can continue to serve your critical role in the alert and warning 
cycle if disaster strikes?
    Answer. Wireless network resiliency is one of CTIA and our member 
companies' highest priorities because wireless supports critical 
emergency services during disasters, including WEA and 9-1-1. As noted 
in my testimony, WEAs have been used extensively to warn the public of 
severe weather emergencies. This past fall, more than 300 Wireless 
Emergency Alerts warned people around Houston, Texas about Hurricane 
Harvey and its rising floodwaters, more than 200 Wireless Emergency 
Alerts warned Floridians about the strong winds of Hurricane Irma, and 
Wireless Emergency Alerts played a critical role in warning many 
Californians about the devastating wildfires.\12\ In 2013, 29 children 
were saved from a tornado ripping through a soccer building in Windsor, 
Connecticut when the camp manager received a Wireless Emergency Alert 
seconds before the tornado touched down.\13\ Even as the system was 
only months old in 2012, public safety officials were using Wireless 
Emergency Alerts to warn the people in the path of Superstorm 
Sandy.\14\
---------------------------------------------------------------------------
    \12\ See generally CTIA, Hurricane Harvey: Resiliency & Relief, 
https://www.ctia.org/hurricane-harvey/ (last visited Jan. 16, 2018); 
Aaron C. Davis & Sandhya Somashekhar, The only California county that 
sent a warning to residents' cellphones has no reported fatalities, 
Wash. Post, Oct. 13 2017, https://www.washingtonpost.com/
investigations/the-only-california-county-that-sent-a-warning-to-
residents-cellphones-has-no-reported-fatalities/2017/10/13/b28b5af4-
b01f-11e
7-a908-a3470754bbb9_story.html?utm_term=.cd24bb9ecf9chttps://
www.washingtonpost.com/investigations/the-only-california-county-that-
sent-a-warning-to-residents-cellphones-has-no-report
ed-fatalities-/2017/10/13/b28b5af4-b01f-11e7-a908-
a3470754bbb9_story.html?utm_term=.cd24b
b9ecf9c; Richard Perez-Pena, Fire Alert Sent to Millions of Cellphones 
Was California's Largest Warning Yet, N.Y. Times (Dec. 7, 2017), 
https://www.nytimes.com/2017/12/07/us/cellphone-alerts-california-
fires.html.
    \13\ Rick Wimberly, Powerful Wireless Emergency Alerts Success 
Stories at Congressional Hearing, Emergency Management (Oct. 24, 2013), 
http://www.govtech.com/em/emergency-blogs/alerts/Powerful-Wireless-
Emergency-Alerts-Success-Stories-at-Congressional-Hearing.html; see 
also, David Owens & Chloe Miller, National Weather Service Confirms Two 
Tornadoes Monday, Hartford Courant (July 2, 2013), http://
articles.courant.com/2013-07-02/news/hc-tornado-warning-0702-
20130701_1_windsor-locks-dome-national-weather-service-confirms
    \14\ Id.
---------------------------------------------------------------------------
    The availability of WEA during emergencies and disasters is due to 
the resilience of wireless networks. In addition to individual network 
resiliency practices of our member companies, CTIA's voluntary Wireless 
Network Resiliency Cooperative Framework and associated best practices 
are helping to make wireless networks more resilient to a variety of 
threats. Notably, 95 percent of wireless cell sites were operational 
throughout Hurricane Harvey in 2017. CTIA's member companies will 
continue working hard to maintain wireless networks to support WEA and 
other emergency communications during disaster situations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Sam Matheny
    Question 1. Your testimonies both highlighted the fact that the 
Hawaii incident, while unfortunate, illustrated a fairly flawless 
execution of the backend alerting protocol supported by the wireless 
and broadcasting community. How, if at all, do the decisions made by 
states and localities when it comes to software or hardware impact the 
operations of the wireless and broadcasting communities?
    Answer. As a general matter, the decisions made by states and 
localities with regard to software and hardware have little impact on 
the operations of the broadcasting community. Broadcasters are 
generally made aware of EAS alerts via one of two systems: The Common 
Alerting Protocol (CAP) system, which is an international standard 
employed by the Integrated Public Alert and Warning System (IPAWS), and 
the Specific Area Message Encoding (SAME) protocol, which is the legacy 
notification system originally developed by NOAA, later adopted by the 
FCC, and which is still used in many areas. Regardless of how the 
message is sent to broadcasters, it will be transmitted to viewers and 
listeners so long as it is authenticated. Alternatively, in some 
states, EAS communications are administered by a third party 
distributor contracted by the state or locality. In these cases, it is 
possible that broadcasters may have to deploy an additional system or 
piece of equipment to receive and relay EAS messages.

    Question 2. Have your members developed relationships with State 
and local emergency management/EAS operators and shared challenges or 
opportunities to work together in pursuit of your common goals?
    Answer. Yes, broadcasters have developed close relationships with 
local emergency managers to ensure reliable communications during 
emergencies. As a practical matter, the emergency managers are ``news 
sources,'' and broadcasters, in turn, take this information and 
disseminate it during emergencies. Regarding EAS specifically, 
broadcasters are closely involved in State Emergency Coordinating 
Committees (SECCs), which are the state organizations that construct 
the state EAS plans. Broadcasters are often the lead members on the 
SECCs, and work closely with emergency managers on drafting the plans.

    Question 3. What are some of the avenues or coordination structures 
your organizations participate in with FEMA? Do you have insight into 
working groups or advisory councils that help facilitate conversations 
around best practices, challenges, etc.?
    Answer. I am a member of FEMA's Integrated Public Alert and Warning 
System (IPAWS) Advisory Committee, which evaluates current emergency 
notification protocols, standards, and procedures, and ultimately 
develops recommendations for an improved EAS system. In addition, the 
National Association of State Broadcast Associations (NASBA) and the 
National Association of Broadcasters (NAB) coordinate with FEMA, both 
formally and informally, during an annual EAS summit, which takes place 
every February in Washington, DC. NAB staff also work with FEMA staff 
on FCC advisory councils, including the Communications Security, 
Reliability, and Interoperability Council (CSRIC). For example, I 
personally participated in both CSRIC IV and V, and Kelly Williams, a 
senior director in the technology department at NAB, is currently 
participating in CSRIC VI. The CSRIC has created best practices and 
guidelines for disaster preparation and recovery, and considered ways 
to improve the EAS during multiple iterations of the CSRIC. FEMA also 
makes several presentations each year at the NAB Show, the broadcast 
industry's largest annual conference, which will be taking place again 
in April of this year. Finally, NAB coordinates directly with FEMA on 
an ad hoc basis when disasters arise, such as the recent hurricane in 
Puerto Rico. This public-private partnership can help to bolster the 
disaster response of both FEMA and local broadcasters.

    Question 4. As we know from recent events, the resilience of our 
institutions, and particularly those that provide critical services, is 
essential for the swift response and recovery from natural and man-made 
disasters. Obviously as we talk about infrastructure and resilience in 
the face of changing threats, understanding best practices and 
investments industries are currently making is important. Are you 
required to meet specific resilience or redundancy standards to ensure 
you can continue to serve your critical role in the alert and warning 
cycle if disaster strikes?
    Answer. As I noted in my testimony, resiliency and redundancy are 
essential considerations for any broadcaster and uniquely position us 
as first informers during times of crisis when other communications 
infrastructure fails. Broadcasters invest heavily to ensure they remain 
on the air in times of disaster, and broadcast facilities often have 
redundant power sources, automatic fail-over processes, auxiliary 
transmission systems, generator back-up, and substantial fuel reserves. 
FEMA officials have noted that in times of emergency there is no more 
reliable source of information than local broadcasters. Stations can be 
fined by the FCC if their EAS equipment is not functional, but unlike 
with telephone services, there are no outage reports required for 
broadcasters if they are forced off the air. In addition, some 
broadcasters voluntarily participate in a cooperative program with FEMA 
to serve as Primary Entry Point (PEP) stations, and act as the source 
of messages initiated by the Presidential Emergency Alert System. 
Stations that participate in the PEP program have their own set of 
resiliency requirements as set forth by FEMA. Due to intense 
competition in the industry, however, broadcasters have incredibly 
strong incentives to remain on the air, regardless of any specific 
external requirements. Put simply, if a broadcaster goes off the air, 
listeners and viewers will just change the channel.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
